<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND

                 HOUSING  AND  URBAN  DEVELOPMENT,  AND

                  INDEPENDENT AGENCIES APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio               MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan           CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky           ROBERT E. ``BUD'' CRAMER, Jr., 
 JOHN E. SUNUNU, New Hampshire       Alabama
 VIRGIL H. GOODE, Jr., Virginia      CHAKA FATTAH, Pennsylvania     
 ROBERT B. ADERHOLT, Alabama        
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
          Frank M. Cushing, Timothy L. Peterson, Dena L. Baron,
         Jennifer Miller, and Jennifer Whitson, Staff Assistants
                                ________
                                 PART 7

                     ENVIRONMENTAL PROTECTION AGENCY

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 79-524                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                           Tuesday, March 12, 2002.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

CHRISTINE TODD WHITMAN, ADMINISTRATOR
RAY SPEARS, DEPUTY CHIEF OF STAFF
MORRIS X. WINN, ASSISTANT ADMINISTRATOR, OFFICE OF 
    ADMINISTRATION AND RESOURCES MANAGEMENT
JEFFREY HOLMSTEAD, ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND RADIATION
SYLVIA K. LOWRANCE, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF 
    ENFORCEMENT AND COMPLIANCE ASSURANCE
MARGARET N. SCHNEIDER, DEPUTY ASSISTANT ADMINISTRATOR, OFFICE OF 
    ENVIRONMENTAL INFORMATION
LINDA M. COMBS, CHIEF FINANCIAL OFFICER
MICHAEL W.S. RYAN, DEPUTY CHIEF FINANCIAL OFFICER
ROBERT FABRICANT, GENERAL COUNSEL, OFFICE OF GENERAL COUNSEL
NIKKI TINSLEY, INSPECTOR GENERAL
JUDITH AYRES, ASSISTANT ADMINISTRATOR, OFFICE OF INTERNATIONAL 
    ACTIVITIES
STEPHEN L. JOHNSON, ASSISTANT ADMINISTRATOR, OFFICE OF PREVENTION, 
    PESTICIDES AND TOXIC SUBSTANCES
HENRY L. LONGEST, II, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF 
    RESEARCH AND DEVELOPMENT
MARIANNE HORINKO, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE AND 
    EMERGENCY RESPONSE
DIANE REGAS, DEPUTY ASSISTANT ADMINISTRATOR, OFFICE OF WATER
THOMAS GIBSON, ASSOCIATE ADMINISTRATOR, OFFICE OF POLICY, ECONOMICS AND 
    INNOVATION
EDWARD D. KRENIK, ASSOCIATE ADMINISTRATOR, OFFICE OF CONGRESSIONAL AND 
    INTERGOVERNMENTAL RELATIONS
JOSEPH MARTYAK, ACTING ASSOCIATE ADMINISTRATOR, OFFICE OF 
    COMMUNICATIONS, EDUCATION, AND MEDIA RELATIONS
JOSEPH L. DILLON, COMPTROLLER, OFFICE OF THE CHIEF FINANCIAL OFFICER
NANCI E. GELB, DIRECTOR, ANNUAL PLANNING AND BUDGET DIVISION
ROMONA TRAVATO, DIRECTOR, OFFICE OF CHILDREN'S HEALTH PROTECTION

                    Chairman Walsh's Opening Remarks

    Mr. Walsh. Good morning. The subcommittee will come to 
order.
    Good morning, Administrator Whitman. Today we will continue 
our fiscal year 2003 budget hearings by taking testimony from 
the Environmental Protection Agency on its 2003 budget 
submission. For fiscal year 2003, the agency has requested 
$7,723,600,800, a decrease of nearly $459 million from the 
adjusted fiscal year 2002 appropriated level. I have used the 
word ``adjusted'' in the context of this comparison for three 
reasons: First, the final enacted 2002 level includes, by EPA 
accounting, nearly $502 million of congressionally-mandated 
priority spending matters.
    Although these Congressional priorities represent just a 
little over 6 percent of the entire EPA appropriation, it is no 
surprise that these have been excluded from the 2003 request. 
One could say that the decrease for 2003 is due entirely to 
this fact alone. Second, a little over $183 million was 
provided to EPA in the supplemental portion of the 2002 defense 
appropriation bill for security and counterterrorism-related 
matters, some of which is not expected to be a recurring cost.
    The 2003 request, in fact, includes some $128 million for 
Homeland Security-related matters, a reduction of over $54 
million below the 2002 appropriated level.
    A third final adjustment deals with the addition in the 
budget request of just over $107 million for the accrued costs 
for legislation proposed by the administration and employees 
pension and health benefits. While I expect the issue of 
whether or not the Congress approves this legislative proposal 
will be determined at a later time, and undoubtedly at an 
appropriations-wide basis. For the purposes of a fair apples-
to-apples comparison between 2003 and 2002, I have included in 
the final 2002 enacted level mention about the equivalent costs 
of this proposed legislation.
    Testifying before the committee this morning, and again 
this afternoon, will be EPA's very able administrator, former 
New Jersey Governor, Christine Todd Whitman. Madam 
Administrator, we welcome you back.
    As you are aware, our schedule leading to markup of the 
2003 appropriations bills has been tightened considerably, 
making it very difficult to schedule more than one day for this 
hearing. I am sure you are very disappointed that we won't be 
going more than one day. Nevertheless, you now have a year of 
service under your belt, and I am sure that we can have a very 
productive session today.
    As a housekeeping matter, I would just like to note that 
because there are no votes until after 6:30 this evening many 
of our members will be flying into Washington today from their 
districts and may arrive late during the morning session or 
into the afternoon. When they do arrive, I will make every 
effort to recognize them as quickly as possible so that all 
members will have the opportunity to participate fully.
    With the indulgence of my colleagues, I would like to begin 
this morning with a few more general comments. First, I would 
note that EPA's 2003 budget request is not only well-conceived, 
but perhaps the most realistic budget document we have seen for 
the agency in at least 8 years. While it is far from perfect, 
it includes, after all, only executive branch earmarks and no 
legislative earmarks. There seems to be a trend there, and it 
is disappointing to see that recurring throughout the 
appropriations budget, and there has been a lot of discussion, 
particularly about the Army Corps of Engineers budget. It will 
be an issue for us, a very serious issue.
    But it does include significant funding for many 
Congressional priorities. To mention just a few of these, the 
Brownfields program is proposed for $200 million. The 1-year-
old Beach Grant program for $10 million, and the Section 319 
Nonpoint Source Pollution Grant programs for $238 million; the 
Endocrine Disrupter Research program for $12 million; and the 
Great Lakes program for $15,128,000. All of these funding 
levels are at or above the 2002 appropriated level.
    Perhaps more significant than any other program request is 
the fact that you have asked for a very realistic $1.212 
billion for the Clean Water SRF program tells me that you are 
more interested in presenting and pursuing a responsible budget 
than you were in playing silly budgetary games with Congress.
    This committee and the Congress will obviously make some 
changes in the document that you have presented to us. 
Nevertheless, I would submit that you have made our job just a 
bit more difficult by submitting a budget that we will be 
challenged to find great fault in.
    Madam Administrator, you and your agency are to be 
commended. In the same vein, I would like to take this 
opportunity to publicly thank you as well as your fine staff 
for the excellent and most difficult job you did in 
decontaminating the Hart Senate Office Building following the 
anthrax exposure last fall. The local media so often focused on 
this problem or that problem, this person's complaint or that 
person's complaint, they missed the real point, that the Hart 
Building is not only large; it is an extremely complex 
structure.
    EPA undertook and accomplished, in relatively short order, 
something that no one had ever done before. If I may signal out 
two key players in this effort, all of us should thank Mr. 
Richard Rupert, EPA's on-scene coordinator, who literally gave 
up months of his life to move to Washington in order to take on 
this challenge; and Mr. Tom Voltagio, EPA region 3's deputy 
regional administrator, for the countless hours they and their 
team spent to undertake this incredible task. They, every bit 
as much as our military forces and police and firefighters and 
paramedics in New York City, at the Pentagon and elsewhere 
around the Nation, are, in my opinion, the true heroes of the 
war on terrorism.
    Finally, I would like to take a moment to comment on 
unfair, and I think totally erroneous, allegations made 
recently through the media that Administrator Whitman and the 
agency have been backing away from proper enforcement of the 
Clean Air Act through actions taken on the New Source Review 
program. The facts by themselves would seem to put this 
ridiculous notion to rest.
    Since January 2001, the agency has issued 87 information 
requests to power plants, refineries and other facilities for 
specific pollution data required under section 114 of the Clean 
Air Act. They have issued 22 notices of violations or findings 
of violation under section 113 of the Clean Air Act.
    They have filed and concluded, administratively and 
otherwise, 7 violation cases and conducted numerous other 
miscellaneous enforcement actions using the many authorities 
provided by law. But I do not wish to speak for the Agency or 
the Administrator on this or any other matter. It is, I 
believe, incumbent on us to not allow erroneous, and perhaps in 
this case, malicious accusations to linger without being 
challenged. This is an issue which the Subcommittee has 
followed for quite some time, and, I might add, not necessarily 
in agreement with the Agency on how they have interpreted the 
scope of what constitutes a New Source Review under the law.
    Rather than trying to somehow subvert the law, I believe 
the Administrator has done nothing more than tried to reach out 
to industry in an attempt to negotiate solid, statutorily 
consistent, environmental results rather than drag folks 
immediately into court.
    Should the soft touch not get the job done, I am quite 
certain, and the statistics I noted a moment ago bear this out. 
There will be no hesitation to take the administrative and 
legal routes. As the Administrator herself stated in her 
confirmation hearing a little over a year ago, `I intend to use 
the carrot, but I won't throw away the stick.'
    I hope this unfortunate and unnecessary diversion is put to 
rest so the Administrator and the Agency can continue to 
concentrate on the important environmental issues before them.
    I thank you all for your indulgence and would like now to 
recognize my friend and colleague, the ranking member, the 
gentleman from West Virginia, Mr. Mollohan, for any remarkshe 
would like to make.

               Ranking Member Mollohan's Opening Remarks

    Mr. Mollohan. Thank you, Mr. Chairman. Governor Whitman, 
welcome. I would like to join the chairman in welcoming you to 
the hearing this morning. First, let me congratulate you on the 
excellent work you have done under very trying circumstances in 
your first year on the job. I look forward to your testimony 
here today.
    Last year, none of us knew the incredible challenges our 
Nation would be facing in the coming months. September the 11th 
added another dimension to EPA's mission to protect the 
public's health and safeguard the environment. I read your 
budget submission with interest, and am pleased to see the 
request for $127 million in new funding for homeland security. 
I will be interested to hear you talk about the lessons that 
have been learned from EPA's on-site work at the World Trade 
Center site, and the anthrax cleanup at the Hart Building and 
other locations in Washington, D.C.
    Also, I am pleased to see that your proposed budget 
increases the funds available for Brownfields reclamation, 
providing $200 million. This will help meet the growing demand 
and is definitely a step in the right direction. Your budget 
proposal also provides $21 million for a new watershed 
initiative, which will target up to 20 watersheds around the 
country for improvement. Not only will this result in cleaner 
water, it will do so by building on the public/private 
partnerships that have proven so crucial in efforts to work 
with stakeholders to restore the environment in my home State 
of West Virginia.
    However, there are aspects of this budget that concern me: 
the cut in funding for the Clean Water State Revolving Fund, 
for example. The administration's budget proposes to cut it 
from $1,350,000,000 to $1,212,000,000. $500 million of 
congressionally-mandated water and sewer infrastructure 
projects are also cut out of your budget. We can argue about 
who has the best system for selecting projects, but we 
shouldn't use that disagreement as an excuse to cut funding for 
these critical purposes.
    I look forward to working through these differences with 
you and working with the chairman as the process moves forward, 
and I look forward to your testimony here. Thank you. Thank 
you, Mr. Chairman.
    Mr. Walsh. Thank you. Madam Administrator, it is now my 
pleasure to recognize you for your opening statement and the 
full text of your testimony will appear in the record.

                Administrator Whitman's Opening Remarks

    Ms. Whitman. Thank you very much, Mr. Chairman, members of 
the committee. I am pleased once again to have this opportunity 
to discuss with you the President's budget request for the next 
fiscal year for the Environmental Protection Agency. The 
President's budget provides the Environmental Protection Agency 
with the funds EPA needs to efficiently and effectively carry 
out its mission to safeguard the environment and protect public 
health.
    As you mentioned, Mr. Chairman, in your opening remarks, 
the President's total request for EPA for fiscal year 2003 is 
$7.7 billion, and I am just rounding. You have it--all the 
numbers there. This request is a $200 million increase over 
last year's request. Overall, our proposed budget reflects the 
goals that President Bush and I share, leaving America's air 
cleaner, its water purer and its land better protected. I 
should also point out that EPA's proposed budget is part of the 
administration's record overall request of $44.1 billion for 
environmental and natural resources, the highest ever such 
request representing a $1.1 billion increase over enacted 
levels for the current fiscal year.
    If I may, Mr. Chairman, I would like to discuss some of the 
highlights of our proposal, while submitting a somewhat more 
detailed statement for the record. In addition, I know there 
are some specific questions that members will have, and I look 
forward to having the opportunity to discuss those once we are 
finished with the formal statements.
    First, almost half of our budget, as you know, goes for 
grants to State, local and tribal governments. This reflects 
our experience that many innovative, creative and effective 
environmental achievements are being made by State, local and 
county governments. As I have traveled around the country 
during the past year, I have seen some very exciting works in 
action, whether it is the preservation of additional land in 
the great swamp of New Jersey where Congressman Frelinghuysen 
and I had an event together, to the good work being done by 
Project Pride in Kentucky, the citizens down there, and in 
countless other communities across America. EPA is building 
strong partnerships for environmental success, and the results 
speak for themselves. In this budget, we will build on those 
results to achieve even greater environmental progress.
    Next, this budget more than doubles the funds available for 
Brownfield reclamation, providing $200 million. This money will 
lead to thousands of acres of better protected land in the 
years ahead. The success that so many communities have had in 
cleaning up our less challenging Brownfields will now be 
replicated in the more difficult sites, by cleaning up the more 
difficult sites that we find across the country.
    We have also continued to ask for steady funding for the 
Superfund program at $1.3 billion. I should also point out that 
our request for Brownfields funding is, in addition to the 
Superfund request, not a part of it, a change from the practice 
in the past. Third, this budget provides important funding for 
the New Watershed Initiative, again, as the Chairman mentioned: 
$21 million to enable us to identify 20 of America's most 
challenged watersheds to work in partnership with the States 
and local communities to help restore and protect those 
precious acres.
    This initiative will show the real results that 
partnerships can achieve, and how such partnerships can bring 
together existing programs in a united effort. That is an 
important aspect of what we are doing here with this proposal.
    Nonpoint source pollution is a critical challenge that we 
all face. The watershed initiative fits into that, and we 
propose funding the Nonpoint Source Grant program at $238.5 
million. As a result, this budget will help improve water 
quality for drinking, boating, swimming and fishing in the 
watersheds that we target.
    There are numerous other important initiatives in our 
proposed budget. They include funding to increase the 
development of new technologies for environmental progress, 
funding for research that could lead to significant curtailing 
of animal testing by building on the discoveries from the human 
genome project and funding to increase our knowledge base about 
air quality challenges so that we can help save lives and 
prevent illness, such as asthma among America's children. In 
addition, the combined funding that we have proposed for the 
drinking water and Clean Water StateRevolving Funds is the 
largest such combined request ever.
    Of course, our budget request also includes significant new 
money to help EPA meet its homeland security responsibilities. 
$124 million in new funding we are requesting will support such 
important efforts as protecting the Nation's drinking water 
infrastructure, by funding vulnerability assessments in the 
Nation's water utilities, securing additional equipment and 
personnel to expand our ability to respond to biological 
attacks, and investing in research designed to enable the 
Nation to better detect and respond to chemical or biological 
attacks.
    I am pleased to say, Mr. Chairman, that taken together, the 
President's proposed EPA budget for fiscal year 2003 fully 
supports the work of this Agency. It will enable us to 
transform EPA's 30-year mission to meet the challenges of the 
21st century, and it brings us that much closer to realizing 
our goal of cleaner air for all Americans to breathe, purer 
water for all Americans to drink and swim and fish, and better 
protected land for all Americans to enjoy and cherish for the 
generations to come.
    Thank you very much, and I would be pleased to answer your 
questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. Thank you. We will proceed with questions now.

                        INDOOR AIR AND RESEARCH

    I would like to begin my questioning this morning with a 
discussion of the importance of and the budget request for 
indoor environments. We all recognize that EPA has no statutory 
authority to regulate indoor air. Common sense dictates that 
the indoor environment each of us deals with on a daily basis 
contributes greatly to numerous health-related issues. Indeed, 
some of the studies indicate that Americans spend as much as 90 
percent of their time indoors, where they are exposed to levels 
of certain pollutants far greater than those found out of 
doors. The fallout literally from the World Trade Center attack 
and the surrounding neighborhoods, homes and apartments, and 
the experience of the anthrax cleanup, have only emphasized the 
importance of the issues surrounding indoor air.
    I am aware that the EPA's budget includes the objective to 
ensure healthier indoor air within its preventing pollution 
activity. Within that objective, some $40 million is requested 
for 2003, which I should note is an increase of $652,000 
compared to fiscal year 2002. Of this $40 million-plus, $38.5 
million appears to be available to carry out the agency's 
principal program strategy for indoor environments, which is to 
increase public awareness and increase partnerships.
    Among the activities funded in this area are the children's 
indoor environments program, the indoor environment program for 
houses, schools and buildings, radon detection and education 
programs, and the radon and air grants made through the 
agency's STAG account. I am confident these are all fine 
programs, but my comments--and my comments should not be 
perceived as a criticism. Rather, I am trying to make the point 
that while significant funds are being spent to educate people 
about the dangers posed by indoor environments, precious little 
is being spent to conduct research aimed at detecting and 
resolving many of these indoor air problems. Of the $40 million 
provided in this area, just $1.7 million is proposed for 
research. An added complex to all this has to do with the very 
subject for which I praised you and your employees just a few 
moments ago, fighting terrorist attempts like anthrax which 
severely impact on indoor environments.
    It seems to me that among other things, we should be doing 
significant research aimed at developing building defense 
systems for chemical and biological attacks. I was approached 
just last week by a group who have developed a consumer-sized 
sensing system for water, but not for air. Unfortunately this 
also appears to me to be missing in the EPA's budget 
submission. Other similar research areas that seem to be 
missing as well might include the development, evaluation and 
demonstration of advanced indoor environmental quality 
technologies. The more advanced understanding of air, heat, 
moisture and contaminant transport within buildings. The indoor 
environment impacts resulting from air and contaminant flow 
around homes and buildings and the interaction of indoor air 
quality, thermal comfort, lighting and acoustic quality, and 
the effect that these have on human health and productivity.
    Madam Administrator, I would not ask you to respond at this 
time to each of these suggested research areas, although you 
may wish to or you may wish to do so at a later time in the 
record. Rather, I would ask whether you agree that we are not 
doing enough in this area of indoor environmental research.
    Ms. Whitman. Well, Mr. Chairman, we have a number of 
different research actions or research programs underway right 
now aimed at understanding the health effects of indoor 
pollutants and reducing the risk of those contaminants. That 
research is across the board. It is not always focused solely 
on indoor air. Sometimes we are looking at the contaminant 
itself and what the long-term health impact is of that. It may 
not appear as being just an indoor air quality problem, because 
we are looking at biological contaminants, particulate matter, 
volatile organic compounds. There are 13 research labs across 
the country with which EPA works. We have our own labs, and we 
also contract to ensure that we are focusing on what you have 
identified as--and we believe are also very important issues.
    We do need to get a better understanding of, I believe, how 
we put together a program on indoor air to meet the kind of 
challenge that we faced at the World Trade Center. As you may 
know, the Office of Homeland Security has formed an inter-
agency building air protection work group, of which the EPA is 
a member, that is directed to do--precisely the kind of 
research you were talking about, to meet those individual 
challenges. But as you pointed out, we also have, and are 
doing, a lot of work on children's health risk. We are focusing 
on the long-term health effects of biological contaminants 
found in the indoor air environment and what we can do to 
prevent them. The Indoor Air Quality tools for schools program 
that you talked about and the education program are all a part 
of making people aware of what they can do to reduce their 
exposure.
    We have a pollution prevention research program that we are 
funding to develop tools to characterize and prevent emissions 
of biological contaminants from indoor sources.Again, focused 
primarily on indoor air. We have a particulate matter research program. 
I would be happy to take the list that you enumerated and get back to 
you on all of those, because I don't know all of them off the top of my 
head, but suffice it to say that we do have a very robust research part 
of the Agency.
    In fact, research and sound science are the very core of 
the Agency. Without that we cannot make the kinds of decisions 
and determinations that we are required to make. So we are very 
sensitive to that issue, and are looking for ways to 
continually ensure that sound science is integrated at the 
onset of any decision-making process and to make sure that the 
research that we are doing is the very best that can be done.
    [The information follows:]

                 Indoor Air Quality Technology Research

    EPA conducts research on indoor air quality as a component 
of several larger multi-disciplinary research programs. These 
programs include efforts aimed at understanding: (1) the 
sources of indoor pollutants; (2) levels of pollutants people 
are exposed to indoors, particularly sensitive sub-populations; 
(3) health effects associated with indoor pollutants of concern 
(biological and chemical); and (4) techniques to reduce risks 
from indoor contaminants. Specific areas of research include 
studies to better understand the sources, causes and options to 
mitigate childhood asthma; research to better understand the 
impacts of biological and chemical indoor pollutants on human 
health; and research to understand the relationship between 
outdoor and indoor pollutant concentrations and quantify 
exposures.
    Additionally, as part of the FY 2003 President's Budget 
Request, $75 million is proposed for Homeland Security 
research. EPA plans to work collaboratively with other federal 
agencies and the private sector on better ways to detect and 
contain biological and chemical warfare agents and bulk 
industrial chemicals in buildings, and research to improve 
techniques to decontaminate buildings once a contaminant has 
been introduced, and evaluate safe disposal of residuals. The 
Agency will also pursue an aggressive program to transfer all 
available and new information to those who would need to 
respond to any future building contamination events. Selected 
research activities to be pursued include development, testing, 
and verification of detection devices (technologies will be 
developed and evaluated for rapid detection and measurement of 
contaminants to support pre- and post-clean up monitoring and 
assessment, worker protection, risk assessment, and early 
warning of contamination events), studies to understand 
dispersal of biological and chemical contaminants in and around 
buildings, air cleaning/filtration and decontamination of rooms 
and HVAC ducts, chemical and physical methods for 
decontamination of indoor surfaces, risk assessments of 
decontamination methods, assessment of conditions for safe 
incineration and disposal of residuals, field testing of new 
approaches by first responders, and tools for rapid assessment 
of risks on site.

                      AIR QUALITY: LOWER MANHATTAN

    Mr. Walsh. Given the intensity of the experience we have 
just had relating to indoor air, I have spoken with Congressman 
Nadler, whose district encompasses the World Trade Center 
neighborhood and Assembly Speaker Sheldon Silver, whose 
constituency also is just to the south of the World Trade 
Center. They have grave concerns about the health of those 
neighborhoods, and it would seem to me anyway, that this would 
be an ideal time to focus that research more--rather than to 
shop it out to 13 different centers. I am just not aware of a 
focus on it or more intensity to that research because of the 
experiences we have just seen.
    Ms. Whitman. Well, that certainly is a point that I have 
actually just discussed yesterday with our Office of Research 
and Development. There is a great deal more we do need to know. 
We need to figure out the best ways to do it. We do have a 
specific task force that we have called together for lower 
Manhattan. I would just hasten to use this opportunity to add 
that we have taken over 10,000 air samples in lower Manhattan 
and in the environs.
    We have been very cognizant of the concerns and the needs 
of the citizens, and we recommended from the very beginning 
that people who went back into their homes that contained a 
great deal of dust, get professional cleaners, and understand 
that they need to continually clean with a heightened sense of 
attention, using the HEPA vac and the wet wipe. We have been 
working very closely with the City of New York in providing 
that information to citizens and to businesses in lower 
Manhattan. We have looked and done the air quality sampling. 
ATSDR did some sampling and found that the indoor air quality 
did not show significant elevated levels to cause concern of 
asbestos in the air or the other particulate matter.
    In dust, however, they did find some elevated levels, and 
that would, again, bring us back to the point that we have been 
making continuously, which is, you need to clean in an 
appropriate way, and in fact you probably should get 
professional cleaners in when you first go back into a home. 
But as far as your concern of concentrating the work done on 
the research, I would be happy to work with you on that and 
have our science advisor, once we get him confirmed, work with 
you on that as well.
    Mr. Walsh. We can't help you there.
    Ms. Whitman. Oh, you have lots of influence.
    Mr. Walsh. Maybe we can.
    Well, if we could find a way to make sure that your other 
research priorities were met and work with you to provide some 
resources for this more focused research on indoor air quality, 
would you be willing to advocate and support that?
    Ms. Whitman. I am certainly willing to work with you to see 
what makes the most sense. I would have to bow to the advice of 
the scientists of the Agency, because they are the ones who 
know best how to maximize the research that we are getting, and 
I am not a scientist. I would have to go with them.
    Mr. Walsh. Thank you.
    Mr. Mollohan.

                          BROWNFIELDS CLEANUP

    Mr. Mollohan. Thank you, Mr. Chairman. Governor Whitman, 
the budget includes a doubling of funding forBrownfields 
cleanups to implement the new law passed in September, the total goes 
from $98 to $200 million, an increase for which you are to be commended 
and for which I suspect most Members of Congress will be enthusiastic, 
given the extent of the problem with pollution at industrial sites in 
many of our communities, certainly in my Congressional district.
    Can you tell us how the newly expanded program will work 
and, in particular, how funds will be allocated to the States 
and to individual projects by EPA?
    Ms. Whitman. We are in the process now of finalizing how to 
move forward with the program and how we are going to work with 
the States on these various programs. $50 million in the 
funding will go to the States themselves. We have a grant 
competition that we anticipate an outreach and support of the 
Brownfields, there are a number of activities that we will be 
undertaking that include the programs themselves and the 
administrative expenses.
    We are looking to work with the States to help identify 
those Brownfields that are the ones that can be most readily 
addressed through the monies that we are going to be providing 
them. They will have the opportunity to establish their 
programs to determine how they want to address Brownfield 
challenges in their States. We are going to have $50 million to 
fund new functions and activities that will be created with 
this budget, revolving loan funds that will be managed by the 
State, funding of insurance mechanisms to provide incentives 
for cleanup, additional funds for targeted Brownfields site 
assessment.
    We are going to be working very closely with the States in 
providing them the technical assistance they need to better do 
the assessments, and we look forward to seeing a very robust 
program here.

                    BROWNFIELDS: PETROLEUM SET-ASIDE

    Mr. Mollohan. You said $50 million was to go to the States 
themselves. There is a requirement in the law that 25 percent 
of the funding is to go to petroleum cleanup.
    Ms. Whitman. Right.
    Mr. Mollohan. How are you interpreting that 25 percent? 
What base are you operating off of?
    Ms. Whitman. The 25 percent is off the $121 million that 
will be awarded in grants. The way we do it--the money that 
will actually go to the cleanups. The $30.3 million 25 percent 
of the $121 million.
    Mr. Mollohan. There is some disagreement about what that 
base ought to be.
    Ms. Whitman. I know there are those who question, but this 
is the way that we have been doing it. That is kind of the 
traditional way that the agency has done it. That is off the 
money that actually goes in the grants.
    Mr. Mollohan. How will the petroleum program work?
    Ms. Whitman. Well, for the first time, the public law now 
allows the cleanup of the petroleum sites within Brownfields 
area in conjunction with Brownfields assessment and cleanup. 
There would be $30 million a year if the $200 million is 
appropriated. For the first time this will allow us to get at 
things like gas stations, which form a bulk of the Brownfields, 
and allow for the liability protection as well as providing 
additional dollars to the States to be able to address these 
issues.
    Mr. Mollohan. So how is it going to work? Is it a formula 
program to the States?
    Ms. Whitman. It is not a flat amount. It will be similar to 
the way that we have done Brownfields to date. It is modeled on 
the Brownfields program that we have had as a part of the 
Superfund program, which has been very successful as far as it 
has gone. We don't anticipate any dramatic changes to the 
current Brownfields program, because, as I say, that has worked 
well. What we have here, though, is an expansion of authority 
to these petroleum sites that we were not able to get at 
before. Of course, there is the liability protection, which I 
feel is going to be, in fact, the most important part of this 
program, because it will allow for more private sector dollars 
to come into play here. The $30 million will be competitive for 
the petroleum.
    Mr. Mollohan. Be competitive----
    Ms. Whitman. Competitive applications.
    Mr. Mollohan. That will be run out of EPA, not out of the 
States.
    Mr. Walsh. Could you please identify yourself for the 
record?
    Ms. Horinko. Marianne Horinko, assistant administrator 
for----
    Ms. Whitman. Assistant administrator for Solid Waste 
Emergency and Response.
    Ms. Horinko. The Brownfields program will include $50 
million that will go to the States, to develop their programs 
to provide liability protection and technical assistance for 
both petroleum and nonpetroleum sites. It is a general $50 
million and will be a formula grant to the States for all 
Brownfields sites. Of the $121 million in grant money, 25 
percent will be specifically earmarked for tank sites, and so 
communities and other eligible potential recipients will submit 
applications, much as they do now. We will have a competitive 
process for awarding those grants, but 25 percent will be 
specifically earmarked for underground storage tanks.
    Mr. Mollohan. And run out of EPA.
    Ms. Horinko. Yes.
    Mr. Mollohan. And the $50 million to the States, is that 
for administration?
    Ms. Horinko. That will actually be for States to primarily 
strengthen their voluntary cleanup programs. The law contains a 
bar on EPA taking enforcement action where the States have 
actually developed voluntary cleanup programs that oversee 
Brownfields cleanups, and we feel that a critical part of 
making the law successful is ensuring that States have robust 
voluntary cleanup programs that really have the muscle to run 
programs that can oversee Brownfields cleanup.
    So this $50 million is really capacity building for State 
programs to oversee Brownfields so that we can feel confident 
that when States take action and declare a Brownfields clean, 
that these are good robust programs.
    Ms. Whitman. And some of that money will also be used, 
won't it, Marianne, to help them identify their Brownfield 
sites and to assess those sites?
    Ms. Horinko. That's right.
    Ms. Whitman. The funds can be used to determine the amount 
of pollutant, the type of pollutant that they are facing, 
because that will have a big impact on potential use, future 
use of that site.
    Mr. Mollohan. How did you decide how much money to put into 
the petroleum cleanup part of the program?
    Ms. Horinko. I believe the 25 percent was a formula in the 
law.
    Ms. Whitman. It was formula driven.
    Mr. Mollohan. I know it is, but how did you decide which 
base to use?
    Ms. Horinko. We consulted with our Office of General 
Counsel, and they indicated to us that using this $121 million 
base is consistent with the way similar set-asides were 
interpreted in the Clean Water Act programs. I believe a 
similar approach is used in the Clean Water Act Revolving Loan 
Fund and other big grant programs. So it is consistent with the 
way we do business in other parts of the agency.
    Mr. Mollohan. Thank you. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you. Mr. Frelinghuysen.

                            ANTHRAX CLEAN UP

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Governor Whitman, good morning. Let me echo the sentiments 
and remarks of Chairman Walsh and ranking member Mollohan in 
terms of the work of your EPA staff, not only here in 
Washington, but the good people in Region 3 who were on the 
ground immediately after September 11th, and they are still on 
the ground doing important things to assure public safety and 
welfare, do the air sampling. Some have suggested that you 
haven't been vigorous enough, but from what I heard--and I know 
most of your people from Region 3 live in the area, so they 
have a personal stake in helping, and this has taken a huge 
emotional toll, I know, on a lot of people. But I want to 
commend you and your staff for a lot of professionalism and 
compassion. If more needs to be done, we will support you.
    Ms. Whitman. Thank you very much.
    Mr. Frelinghuysen. And then you add in the fact that our 
State appears to be the origin of this anthrax situation. A lot 
of time and effort has been spent, certainly, in tracking that 
down, but reassuring a lot of people that--who were handling 
mail that--it has sort of gone off the radar screen, but from 
your agency standpoint, it never goes off the radar screen. 
From what I can gather, the laboratories in your area harks 
back to the 1940s, and I have been told by your Region 3 
administrator, that that might be worthwhile to do some more 
investment. The burden on your agency is huge, and you are 
dealing with a pretty antiquated situation.
    I would also like to thank you, since you were good enough 
to mention in your opening remarks, for coming up to New Jersey 
to my district to assist--a big assist in transferring a 
Superfund site from one Federal agency to another. You would 
think we were trying to move the mountain here. You would think 
agencies would be able to cooperate, and I want to thank you 
and your staff for confronting the virtual paralysis which was 
associated with that site and for moving that transfer along 
and accomplishing it.

                       SUPERFUND REAUTHORIZATION

    I would like to focus, if I could for a few minutes--I know 
in your prepared remarks, in your testimony, you highlighted 
Brownfields. Many of us are concerned about the future of the 
Superfund program. So maybe starting with a budget, can you 
sort of review where we are going with Superfund? There is an 
issue of reauthorization. Where are we going in terms of the 
EPA's budget for Superfund?
    Ms. Whitman. I would be happy to answer that, because I 
think it is very important. There has been a lot of discussion 
about what is happening with Superfund and some concern has 
been raised about the Agency's commitment to polluter pays as 
an approach. The budget is $1.3 billion, which as I mentioned 
earlier in my testimony, is exclusive of Brownfields. That $200 
million for Brownfields is separate from the Superfund dollars 
and used to be part of it. So the $1.3 billion is exclusively 
for Superfund.
    $593 million will come out of the trust fund this year for 
this year's budget, and about $700 million out of general 
revenues. We are continuing to see about 70 percent of the 
sites cleaned up by polluter with polluter paying. That is not 
the same as saying that 70 percent of the dollars, it is the 
sites, because some sites are more expensive, and in fact, it 
may be more than that or it may be less. The important thing is 
that we continue to see real results here. The problem we 
have--and I know it is one that you share--is that the number 
of sites that will be completed over the coming year has 
dropped.
    That number, has dropped not so much because of money and 
the trust fund levels, reauthorization or nonreauthorization of 
the trust fund dollars, as the drop comes from a number of 
different problems. I am very concerned about it. Some of them 
have to do with the fact that the most recent past history of 
Superfund has been focusing on sites closest to completion and 
completing those and not starting on some of the others. We 
find ourselves now in a position with a number of mega sites, 
very large, very polluted sites, that require a lot of 
attention and require a lot of dollars. That is slowing down 
the number of completions we think that we can achieve.
    However, we are doing it--going as fast as we can. I have 
asked that a pipeline study be done, and Marianne is actually 
in charge of that. Within 3 weeks, she will have to do a study 
of how we move things through the pipeline. How are we 
targeting which are the most important Superfund sites? I mean, 
for instance, on a mega fund site, if there is one, part of it 
that is particularly hazardous to the surrounding community, 
should we clean that up first. Then, if the rest of it isn't so 
bad, stop and go to the other site where it is that intense?
    We need to take a look at how we handle Superfund sites, 
whether we are doing it in the right way, and that should be 
ready to be submitted to me within 3 weeks. We also are going 
to launch a national dialogue with NACEPI on the future scope 
of the NPL and moving beyond construction completions to 
achieve more meaningful environmental outcomes.

                             SUPERFUND TAX

    Mr. Frelinghuysen. But the public perception in the 
newspapers is that somehow the administration is backing off 
from the notions that polluters pay. That is not the case.
    Ms. Whitman. No. That is not the case.
    Mr. Frelinghuysen. They are somewhat forgetting the fact 
that the trust fund is running out of money, that Congress has 
enacted--because the taxes haven't been collected since 
December of 1995, to that--and we are not suggesting that those 
that have paid those taxes are polluters, but there is a 
certain percent of what you are using for revenue, which 
polluters are actually paying. Is there a dollar amount in 
terms of----
    Ms. Whitman. $1.7 billion last year.
    Mr. Frelinghuysen. Well, in terms of what responsible 
parties are paying, is that the figure.
    Ms. Whitman. $1.7 billion is what responsible parties paid 
last year.
    Mr. Frelinghuysen. I know that you and your predecessor, 
you more than your predecessor, have worked with Congress in 
terms of getting Brownfields legislation. What are we doing 
relative to working with authorizing committees on this issue 
in terms of requesting the renewal of the tax?
    Ms. Whitman. The President did not include the renewal of 
the tax in the budget request this year. The feeling was that 
Congress has failed to reauthorize since 1995. We are 
continuing to fund Superfund at the same level as last year. 
And that is where the confusion comes in. People assume because 
the trust fund is winding down--I believe it will be at 28 
million next year, which is--you know, we are going to have to 
find the money elsewhere. We have been----
    Mr. Frelinghuysen. Well, that elsewhere is the 
discretionary----
    Ms. Whitman. Right. But that still doesn't go to the 
polluter pays principle. As I said, about 70 percent of the 
sites are continuing to be paid for by the responsible parties 
where we can identify them, and that is critical. The other 
money is spent on those sites that we call orphan sites; ones 
where we can't identify the responsible party or where the 
responsible party has gone bankrupt, and we have no way of 
getting to them.
    So we look forward to working with Congress. There are 
obviously concerns about the Superfund program itself, and a 
need for another look at it. Reform of Superfund has been an 
issue that has been discussed for some time: liability, 
clearing up the liabilities, giving some liability protection 
there, understanding, whether school boards are liable when 
they have sites that are in Superfund areas, those kinds of 
things.
    And I would be happy to work with Congress on how we move 
that forward. But right now, the important thing is to 
understand that the same amount of dollars are going to 
Superfund as have gone in the past. We anticipate continuing to 
move forward with cleanups, but we do recognize another problem 
that really is one of how we have identified these sites and 
how big the ones remaining sites are.
    Mr. Frelinghuysen. We have existing sites that need to be 
cleaned up, they need resources, and as you point out, larger 
sites appear to be identified and added to the list. And I may 
be speaking from the minority position, but we need to 
reauthorize the Superfund program. I think it is entirely 
appropriate.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Rodney.
    Mrs. Meek.

               BROWNFIELDS PROGRAM: LIABILITY PROTECTION

    Mrs. Meek. Thank you, Mr. Chairman, and welcome back, 
Governor Whitman. Good to have you here.
    Again, my favorite subject is Brownfields. Last year you 
promised this committee quite a few things about Brownfields, 
and guess what? You kept your promise. Thank you for that.
    In my Congressional district, I have 19 Brownfields, and 
most of it is located in the older areas of my district. And 
very little is being done about them, and it also causes sort 
of a catch-22 when it comes to the utilization of community 
development block grant funds, which is used quite a bit in 
housing and other things, but we can't get developers in there, 
because of the problems with Brownfields. And everyone is 
concerned about rebuilding these neighborhoods, one at a time, 
but it is very difficult, because certainly developers would 
rather go into the suburbs where it is much easier, there is no 
problem with Brownfields there.
    So you asked for an increase last year, and you just told 
us there is money in the program, and you also said we needed 
to pass legislation, which we did. So now I would like to know 
what can you do with such a small amount of money to--in the 
inventories phase, someone has asked about this. Will you be 
able to coordinate with HUD in terms of implementing a 
Brownfields program? My major point is that we really need the 
Brownfields program to exist, particularly in the older urban 
areas.
    Ms. Whitman. Congresswoman, I couldn't agree with you more.
    Mrs. Meek. Excuse me. I want to tell you your region has 
worked very closely with us.
    Ms. Whitman. I want to say that that is one of the reasons 
why we had such strong support from the mayors across the 
country for the Brownfields legislation that you all passed, 
and we are very thankful for that.
    Let me just put aside my EPA hat for a second and return to 
my previous job as a governor. I think the biggest, most 
effective thing in this Brownfields legislation, to address the 
needs that you have brought up, is the liability protection. 
There is never going to be enough money. It is not a question 
of the Federal Government paying for all the Brownfields 
cleanup, but as we certainly saw in New Jersey, we were 
aggressive in providing legislation at the State level to offer 
incentives and to provide some protection for developers. But 
we could never offer them the surety that Superfund liability 
wasn't going to come in on top of them.
    You did that with this law. You give them that sense that 
they could move forward, and if they had not had any kind of 
involvement with the previous contamination and under certain 
very limited circumstances, if it didn't migrate into another 
site or on to a Federal site and pose an immediate health 
hazard, they would not be held liable. That is what is really 
going to free up the developers. There are a number of them now 
that have begun to develop expertise in the area of Brownfield 
sites cleanup. That has become their niche in the market, and 
with the kind of protection that Congress has now given them 
with the Brownfields legislation, I believe you are going to 
see a great deal.
    Having said that, we have requested a doubling of the 
amount of money for the Brownfields program to allow us to 
engage with the States in technical assistance and provide them 
the money to help do the kind of assessment on Brownfield sites 
that they need to do.

                       TITLE VI: CIVIL RIGHTS ACT

    Mrs. Meek. Thank you very much. My next question has to do 
with Title VI, the Civil Rights Act, and some of the complaints 
that EPA has been receiving long before you got there, 
governor. And they are still there. They are areas in which we 
really need protection for our children in our community, 
because they are chosen as toxic waste sites, and your agency 
gives them permits. And these permits give them a chance to 
build on these toxic waste sites so that it creates a big 
problem for people, particularly people of color in 
neighborhoods.
    Now, I know that these complaints have been here for years, 
and I am just asking you for some further insight as to which 
strategy are you going to use in trying to resolve some of 
these complaints, and hopefully it will get a little bit 
farther up on your priority list.
    Ms. Whitman. Well, Congresswoman, I have to tell you, 
particularly since our discussion last year, it has been 
something that has been at the forefront and environmental 
justice for new programs is something that is taken into 
consideration by the agency any time we make a decision. As of 
January the 31st of this year, the backlog of the Title VI 
cases had been reduced from 66 to 42. That is about a 36 
percent reduction in those Title VI cases. On Title VII cases, 
we have reduced the backlog by 90 percent. While no decision on 
the merits have yet been issued, as a result of the task force 
operations that are underway, we expect to propose resolution 
on a number of the complaints in the next few months. We have 
assigned a task force to it. We have increased the staffing, 
the attention to this, and it has become a very high priority 
for the Agency. We are working hard to work our way through the 
issues that are involved in these various complaints.

                        ENVIRONMENTAL EDUCATION

    Mrs. Meek. Thank you. Now, in terms of environmental 
education, I don't think it was a good decision to move that 
from EPA and place it under the National Science Foundation. I 
don't think it will get the priority treatment that your agency 
gave it. Of course, I have a feeling it came from EPA--not from 
EPA, but from OMB, and I am not asking you that question, 
Governor. I just know that that should have been--remained 
under your agency, because that environmental education is so 
important to the children and to the people in the communities. 
And it is my understanding, Mr. Chairman, that it is going to 
stay under this committee anyway--Mr. Chairman?
    Mr. Walsh. Yes?
    Mrs. Meek. I understand that environmental education is 
going to stay under the reaches of this committee. So I would 
just like to ask you to keep it in here when it comes here.
    Mr. Walsh. I thank the gentlewoman. I have questions about 
that issue, too, and I agree that the program has been well run 
by EPA. We need to hear more about the issue.
    Mrs. Meek. Yes. Thank you. You heard that. That is a 
promise.
    Mr. Walsh. I didn't promise anything.
    Mrs. Meek. Thank you very much.
    Mr. Walsh. A promise is a promise if it is a promise.

                          DEEP WELL INJECTION

    Mrs. Meek. You have helped us with our deepwell injection 
in Florida. We are the only State with that kind of wastewater 
treatment. And it is becoming a little bit of a problem, but 
not enough for me to wave a red flag, but we want to continue 
to--it appears to me that there needs to be some kind of 
concentrated look at this, in that in Florida, some cities and 
municipalities and jurisdictions are using one way of treating 
that. Others use it another way. And it could become a problem. 
So if you will ask your research people to continue to look at 
the deepwell injection, it will help us tremendously, and I 
thank you very much.
    Ms. Whitman. Congresswoman, on that, let me just say we 
expect to make the draft relative risk assessment report, which 
is a relative risk assessment of wastewater management 
operations for treated effluent in South Florida, available for 
public comment this Spring, and complete the assessment in the 
Summer of 2002. We published a proposed rule on July 7th of 
2000, and we are looking forward to completing that for the 
Florida class 1 wells.

                             LEAD POISONING

    Mrs. Meek. Thank you. And thank you for your treatment of 
lead poisoning. That is a big problem in my district, and 
particularly among the poor communities and the children. I was 
pleased to read in your budget justification that some of your 
lead activities will lead toward a stronger contribution to 
eliminating lead poisoning of our Nation's children. I think 
that is a very worthwhile goal, and thank you.
    Ms. Whitman. We definitely made that a goal, and it was a 
charge that I gave one of our advisory committees. That is an 
entirely preventable problem. We should be able to deal with 
lead poisoning as it affects our children and as it affects all 
of us.
    I would like to just comment on the Star program----
    Mrs. Meek. Yes.
    Ms. Whitman. It is being moved to the National Science 
Foundation to consolidate the educational programs, but the 
funding for the minority academic institutions still stays with 
us and will continue to stay within the Agency. I just wanted 
to clarify that for you.
    Mrs. Meek. Thank you. I yield back, Mr. Chairman.
    Mr. Walsh. Thank you. Mrs. Northup.
    Mrs. Northup. Thank you, Mr. Chairman. Welcome----
    Ms. Whitman. Administrator.
    Mrs. Northup. Madam Administrator. I want to say Secretary.
    Ms. Whitman. We would love it if you could----

                       VEHICLE EMISSIONS TESTING

    Mrs. Northup. No. I have never quite understood the 
distinction, but clearly you--much of what your department does 
is of great interest to the people across this country and in 
my community.
    There is a lot of focus these days in my community about 
the vehicle emissions testing program, and I think there is a 
lot of debate going on currently right now in our State 
legislature where they are actually being asked to take some 
actions, and a lot of misinformation. So I would sort of like 
to start with that and ask you several questions.
    There is a strong belief in my county that improved air 
emission controls on new cars, that gasoline additives that 
have improved air emissions, and the local law that requires a 
minimal investment by older cars, has reduced the effectiveness 
and the benefit derived by the VET program, the vehicle 
emission testing program, to the point that the benefits no 
longer outweigh the time and cost. And I just wondered if you 
would tell me, what would happen if our State legislature 
eliminated the VET program entirely?
    Ms. Whitman. Well, Congresswoman, in the Louisville area, 
they are now in attainment.
    Mrs. Northup. Yes, they are.
    Ms. Whitman. Therefore, there is not a requirement that 
they implement that program. The requirement under the Clean 
Air Act is that they be able to show us a modeling plan that 
guarantees their continued attainment for a 10-year period. How 
they choose to reach that attainment is really up to their 
discretion, because they are in attainment now, unlike some 
other areas, that unfortunately Congressman Frelinghuysen and I 
know it only too well. Of 21 counties in New Jersey, 18 were 
out of attainment, so we were told we had to have the enhanced 
inspection maintenance. But in Louisville, because they are in 
attainment, they don't have to. We are not enforcing that, 
except that under the Clean Air Act, they do need to be able to 
show a modeling plan that would show they can stay in 
attainment for the next 10 years.
    Mrs. Northup. So if the legislature cancelled the program, 
we would expect that our State would have to go back to the 
drawing board to--in a sense--enact a new SIP program, a State 
Implementation Program, that would capture the benefits that 
have been captured by the VET previously in order to stay in 
attainment.
    Ms. Whitman. Exactly.
    Mrs. Northup. Would they have some time to do that? I mean, 
let us say the legislature canceled the program in the next 2 
weeks. Federal highway dollars don't stop flowing in the next 2 
weeks, do they?
    Ms. Whitman. No, they don't. And I know Region 4 has been 
working closely with the legislators to try to work our way 
through this, working with the department--I don't know whether 
they are called the Department of Environmental Protection or 
the Environmental Quality Agency--but we have been working very 
closely with the State to try to keep them from getting into 
any kind of a situation where you would have an immediate 
negative impact. But clearly it is an issue. We are driven by 
the law; we can't put people at risk. We need to ensure that 
they can provide that certainty about keeping the air clean, 
and the better way from our perspective to do it would be to 
have the SIP plan reworked and have some indication prior to an 
elimination.
    Mrs. Northup. I think the problem is that they have not 
been able to get any cooperation with the State drafting a new 
SIP program. I mean, the truth is only Jefferson County cars, 
which Kentucky has 120 counties, that gives you an idea of how 
small a county is in a geographic area. So many of the people 
who commute to and from work into Jefferson County, which is 
the only county that has to have the testing, actually bring 
cars that are untested. So nobody else in the State 
particularly minds that Jefferson County has a vehicle 
emissions testing program. Jefferson County residents feel they 
are bearing the burden that should be more widespread. So I 
guess my question is if the legislature eliminated the vehicle 
emissions testing, then in a sense you would be calling upon 
the State. They would have to draft the time----
    Ms. Whitman. We would give them time. We would not 
immediately impose the sanctions.

                                MOBILE 6

    Mrs. Northup. Okay. Let me ask you further, I understand 
that about one-sixth of the benefits we derive from all of the 
actions we took to get into compliance come from the vehicle 
emissions testing program. So that would be about 16 percent. 
There is a new model, MOBILE 6, that is coming out. To date, 
communities that have run the benefits of their current vehicle 
emissions testing under the new model, do they get an increased 
number of credits or a decreased number of credits?
    Ms. Whitman. I will get Jeff Holmstead, the Assistant 
Administrator for Air and Radiation to answer this question. 
This is too technical for me.
    Mrs. Northup. There is a new model we are going to be using 
at some point; is that correct?
    Mr. Holmstead. That is correct, MOBILE 6.
    Mrs. Northup. Would we expect, based on communities that 
have already run this model based on their current VET test, do 
they get more credits or fewer credits for their vehicle 
admission testing based on the new model?
    Mr. Holmstead. The model is highly specific on the mix in 
different areas. So I think we all need to understand that. But 
in general, the new test shows that cars are more durable and 
get better performance than we previously thought, which is 
good news. The bad news is it suggests that these sorts of 
vehicle I/M programs don't give you as much credit as we 
previously thought.
    Mrs. Northup. So if we get 16 percent of our sort of 
compliance credits right now, it is probable maybe that we 
would get fewer than that and we are going to have to put in 
place in the SIP program anyway, I take it, new initiatives to 
stay in compliance.
    Mr. Holmstead. That is correct. We would certainly use the 
new MOBILE 6 model, in terms of looking at the benefit for 
these sorts of programs; but I think as you explained, the key 
thing now is that the State needs to have a maintenance plan. I 
think we are prepared to work very closely with the State to do 
that, whether it is some sort of I/M program or some other 
program that would get equivalent reductions.

         VEHICLE EMISSIONS TESTING: IMPACT OF DROPPING PROGRAM

    Mrs. Northup. And I hope you will. I have to say that from 
my own experience, I have lived there through the entire time, 
I think that the VET program was very popular because it was 
very clear to all of us who lived in Jefferson County that our 
air needed to be cleaned up, and it is not just something you 
measure with highly technical equipment. You can see all the 
way downtown in my community these days in the middle of 
summer, and there is great support for the effects of this. The 
decrease in support is coming from the fact that more and more 
people's cars are passing. They are aware that they are paying 
a high price for their cars to get this improved equipment. 
They see more and more people coming, commuting into our 
county. It would be highly politically unpopular to get those 
counties to adopt a VET program, and it is becoming very 
unpopular, and so I am eager to know what our alternatives are 
and how we can responsibly address the very strong support for 
clean air with what is the best way to get there.
    Let me ask you, I am aware that there are some communities 
and some States that have dropped their vehicle emissions 
testing, where have they gone to redraft their SIP program and 
capture the number of credits they need, not just so they stay 
in compliance with the EPA but so that they also have the clean 
air, which is the whole point of it?
    Mr. Holmstead. There are a whole variety of things that 
States have done, though I can't tell you specifically for the 
areas where States have eliminated I/M programs, but there are 
other sorts of vehicle programs. There are fleet programs, that 
are retrofitting existing fleets of school buses. There are a 
lot of things that can be done.
    Now, 16 percent or whatever the number is, is no small 
feat. And as you well know, I think the folks in your area have 
done an excellent job of looking for the kinds of programs and 
have been very effective in cleaning up the air. But there are 
a variety of things, and we would be quite happy to sit down 
with you or folks in the State to walk through the options that 
they might have to replace the reductions that they would lose 
if they were to eliminate the I/M program.
    Mrs. Northup. Have you all done any sort of cost-benefit 
analysis with any of the States that have dropped it, comparing 
what the total cost is for the VET program that was eliminated, 
with the cost that other entities are required to pay in order 
to absorb the responsibility for clean air?
    Mr. Holmstead. I am sure we have, but I don't know off the 
top of my head how those programs stack up. One of the things 
that is difficult in looking at costs and benefits is looking 
at the cost to people just in the inconvenience of using up 
their time. And so when we look at the costs of ourdifferent 
programs, in some cases you can readily identify what the cost is and 
we can measure how much people have to pay for the programs, how much 
they have to pay to fix the cars that don't pass, but actually costing 
out the hassle factor is a hard thing to do.
    Mrs. Northup. Right.
    Mr. Holmstead. I think we have made an attempt at that, and 
we would be happy to provide you with some estimates of the 
costs and benefits of this program compared to other programs 
that are available.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mrs. Northup. You might just be interested in what has 
happened in my city, is some of the possible adjustments we 
could make to the VET that would make it less onerous; for 
example, having cars tested just every other year, or new cars 
not tested, has brought a suit from the company that does it, 
saying that reducing his income is something that county would 
have to make up those dollars. So you know, it is----
    Ms. Whitman. It is not an unusual case, unfortunately. It 
depends on the contract. We have seen the same thing.
    Mrs. Northup. Well, the contract says if the district takes 
any actions. It is not clear if the legislature eliminated the 
program outright that there would be anybody required to meet 
those revenue expectations. Thank you.
    Mr. Walsh. The gentlelady's time has expired.
    Mr. Price.

                    RESEARCH TRIANGLE PARK FACILITY

    Mr. Price. Thank you, Mr. Chairman. Governor, welcome back 
to the committee. I appreciate your testimony. I want to also 
extend a special welcome to your new chief financial officer, 
Dr. Linda Combs, who came to you from the Treasury Department, 
where she was Assistant Secretary for Management. But before 
that, as you probably know, she has a respectable North 
Carolina pedigree.
    Ms. Whitman. I couldn't tell it from the way she speaks.
    Mr. Price. Hard to figure. She was the education adviser to 
our Governor, she served on the Board of Education in Winston-
Salem and was an executive for Wachovia Bank, so she is well-
equipped for this new assignment and we welcome her as well.
    Governor, can you give us an update on the status of your 
move into the new Triangle Park research facility? I think we 
are becoming close to getting finished with that. That is the 
culmination of quite a few years on the part of EPA and this 
committee, 9 years of appropriations on this committee, as a 
matter of fact. I have heard through the grapevine that you 
might be able to come down to the EPA facility for a dedication 
ceremony sometime soon, possibly as early as May, which of 
course would be a fitting observation of Environmental Science 
Month. We would love to see you do that, but in any case would 
appreciate an update on how things are going.
    Ms. Whitman. Certainly. That is our target. I very much 
look forward to that. It is 96 percent complete. It is a 1.2 
million square foot facility and we are very excited by it. 
Obviously the scientists are extremely excited about it. The 
occupancy on the campus currently is about 50 percent. We are 
moving into it incrementally, 1,000 of the estimated 2,000 RTP 
staff are in place, and we are hoping to have full occupancy by 
the first quarter of the next fiscal year. I am very hopeful 
that it will be a May time frame and I will be able to go down 
and cut a ribbon.

           HAZARDOUS WASTE DISPOSAL BY ACADEMIC INSTITUTIONS

    Mr. Price. Good. We will look forward to that.
    Let me move on to the question of hazardous waste disposal 
by academic institutions, a special case under RCRA which I am 
sure you are familiar with. In its fiscal 2001 report, this 
committee, directed EPA to participate in an initiative to 
demonstrate consensus best practices for managing hazardous 
waste in academic research institutions and asked you to report 
back to the committee with the results. The report by the 
participating academic institutions has been completed, and I 
understand that EPA's contribution is now pending at OMB.
    The report from the academic institutions concludes that 
the industry-oriented regulations of the Resource Conservation 
and Recovery Act are in fact ill-suited for the academic 
research setting. As you know, part of the problem here has 
been that different EPA regional offices and different States 
seem to have significantly different interpretations of RCRA 
requirements for academic research labs. The report recommends 
that EPA clarify for its regional offices and for States and 
universities how much discretion exists under RCRA to permit 
the use of the performance-based best practices recommended in 
the report. It also recommends that EPA encourage the adoption 
of these best practices.
    As I see it, there are two critical components to the best 
practices developed through the initiative. First, the 
environmental health and safety professional within the 
universities should make hazardous waste determinations as 
opposed to the individual lab workers. Secondly, these same 
professionals should be allowed to treat waste in order to 
eliminate their hazardous characteristics, thus reducing the 
overall volume of waste as opposed to simply disposing of the 
waste.
    So that leads me to two questions. One, does EPA concur 
with the conclusions of the report that implementing the 
performance-based consensus best practices developed through 
the initiatives would in fact result in improved environmental 
stewardship that would exceed existingrequirements while 
significantly reducing hazardous waste volume? And, secondly, is EPA 
planning to issue administrative guidance to regional offices and to 
States and to universities clarifying that many or all of the consensus 
best practices described in the report are compatible with RCRA 
regulations? Specifically, does EPA concur that this guidance should 
allow and encourage environmental health and safety professionals 
within universities to make the hazardous waste determination and to 
treat wastes, where possible, to eliminate their hazardous 
characteristics and to reduce their volume, reduce the volume that 
requires disposal?
    If so, when will this guidance be issued?
    Ms. Whitman. EPA supports developing effective alternatives 
for safely managing hazardous wastes at academic institutions. 
We believe that is entirely appropriate, and we are working 
closely with the stakeholders to develop a RCRA policy that 
reflects that need. We are also currently developing guidance 
that will address the specific concerns of academic 
institutions by clarifying EPA's policy pertaining to 
laboratory waste and operations. Of course we feel, as I think 
many people do, that one of the priorities should be waste 
reduction and recycling. And in fact, the Office of Solid Waste 
and Emergency Response in their Waste Reduction and Energy 
Recovery Initiative, to be announced in the very near future, 
will include how we can institute a performance-based approach 
to reuse and recycle of laboratory chemicals. We take this to 
be a separate challenge, an important challenge, and we are 
addressing it as such.
    Mr. Price. Do you anticipate that these best practices will 
or may require some regulatory changes?
    Ms. Whitman. At this point in time, until we have addressed 
all the concerns that OMB had on the final report to be 
transmitted to the Congress, we are still working our way 
through that. I am not sure at this point in time whether we 
think we will require statutory change or not. We do not know 
that yet.
    Mr. Price. Is there anything you would like to add about 
the problem that universities have encountered in terms of 
variations among the regional offices in their openness to some 
of these best practices and some of the differences between 
regions as to the inclination to require that the letter of the 
RCRA rules be followed?
    Ms. Whitman. Well, Congressman, one of the challenges that 
we face at the Agency is sitting in Washington, establishing 
national models that are perceived to be the same, and must be 
the same, and implemented in exactly the same way everywhere. 
The standards for safety, what is safe for human health, what 
is safe for the environment are the same.
    I am trying to allow the regions to have some flexibility 
in dealing with the particular challenges that they find in 
that region. However, when you are talking about universities 
and university laboratory settings, those are pretty standard. 
What they are dealing with, and what they have to address is 
pretty standard. We are looking right now at ways that I 
indicated to develop the kind of guidance that recognizes that 
they are different from other facilities where you have these 
kinds of chemicals and where you have this kind of activity 
going on, so that there is at least that recognition that the 
standards for what is safe to be put into the atmosphere and 
how we deal with chemicals is the same. How you address it when 
you are talking about a research institute and laboratory may 
be different than it is with a chemical company, with the 
manufacturer, and that kind of flexibility is going to be 
recognized.
    Mr. Price. Right. The evidence is apparently that some of 
the best practices that are being developed in universities 
around the country do, in fact, offer more in the way of 
hazardous waste volume reduction than standard practices. In a 
situation like this, the flexibility or the variation among 
regional offices is seen as something of a threat in that what 
is developed in one region in the way of flexibility and a 
cooperative working arrangement might in another region be much 
more rigid, much less flexible; and the prospect of a change in 
administrators or change in administration could be seen by 
these best practices institutions as somehow threatening, and 
making it more difficult to work out ways of handling these 
wastes.
    Ms. Whitman. Actually, the report I mentioned to you, the 
Waste Reduction and Energy Recovery Initiative, is going to be 
really a guidance document for the regions. That is why it is 
important that within that there be special recognition of the 
challenges to research universities.
    Mr. Price. Thank you very much. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you. Mr. Goode.

                    TOTAL MAXIMUM DAILY LOADS STATUS

    Mr. Goode. Thank you, Mr. Chairman. First I would like to 
ask the Administrator about TMDLs, the same as last year. Can 
you give me the status of what you are doing on them?
    Ms. Whitman. We are continuing to work hard to come up with 
an appropriate standard. As you know, we gave some extra time 
to the whole research that is going on and to the review. We 
are continuing to work on that. We have got a number of 
comments, thousands of comments.
    Mr. Goode. A lot from Virginia.
    Ms. Whitman. Lots of comments on it, and we are working our 
way through those comments, which of course is required in 
rulemaking. So we are still in the process of trying to go 
through the comments and see how they impact on the proposed 
rule and what we need to do in order to ensure it is something 
that is workable and responds to the needs. It is one of the 
concerns I have that sort of goes to Mr. Price's question on a 
very different level: that we set one standard in Washington 
for everyone, but we have to be or should be cognizant of the 
impact and implementation on various parts of the country 
because it is very different.
    Mr. Goode. I would just ask that you continue to keep in 
mind there are a number of rural counties in Virginia that the 
levels of pollution in the water comes more from wildlife than 
anything else and that some of the nitrogen in the water comes 
more from the yards in Fairfax County for the Potomac than it 
comes from the farms in far western Virginia.
    Ms. Whitman. And we are working very closely with 
Virginia's Department of Environmental Quality on how to 
address this issue. They have been, as you know, very vocal on 
this and have expressed some very legitimate concerns. We have 
been working very closely with them on addressing the issue, 
how to solve the problem of high-quality TMDL in less time and 
at less cost.
    Mr. Goode. With regard to the rules that were done byEPA 
shortly before you came on board, I would like to read this statement 
about my opinion: These rules should be reviewed, looking at cost-
benefit analysis, impact on small business, impacts on States, impacts 
on energy supplies and whether there are options to achieve the same 
environmental goals in an easier, less costly manner and use of sound 
science. In my opinion, we don't need a whole new expensive Federal 
program set up when we can achieve the same goals more efficiently and 
less costly with existing programs.
    Can you give me assurance that these last-minute rules 
which you encountered are going to go through a thorough 
regulatory review process before anything happens?
    Ms. Whitman. Congressman, we are not planning to implement 
the 2000 rule. We intend to publish a new rule in the Federal 
Register, which we expect to have ready in late spring, mid-
2002. We will take public comment on that proposal and 
promulgate a revised final TMDL rule in late spring of 2003. 
But we are continuing to enforce the TMDLs that are currently 
in place, because there is an ongoing TMDL program in place. So 
I don't want any confusion on that. But we are not planning to 
implement the 2000 rule.
    Mr. Goode. Apart from TMDLs but just water rules in 
general, the same thing?
    Ms. Whitman. It depends, obviously, on the rule. We are not 
going forward with all rules, but we are focusing through all 
of our efforts on water to try to find ways that recognize the 
economic impact of what we do and the fact that economic impact 
affects behavior. It has a way of having unintended 
consequences that may jeopardize people's health--the very 
thing we are trying to protect--if we don't understand all the 
consequences of a proposed rule.
    Mr. Goode. To switch back to the TMDL for a minute, in some 
of the counties in Virginia and I know in other States, we have 
a number of small dairy farmers, and some of these TMDL rules 
just kill them. And I mean, I for one like fresh fluid milk. I 
don't want powdered milk from another country, and I hope we 
will do all we can to work with the local dairy farmers.
    Ms. Whitman. Congressman, as someone who drinks the milk 
produced by our New Jersey cows, I couldn't agree with you 
more.
    Mr. Goode. Mr. Chairman, I also would like to submit a few 
questions for the record and have the Administrator respond 
later, if that is all right.
    Mr. Walsh. That is absolutely all right. Without objection.
    Mr. Goode. Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Hobson.

                      TREMONT, OHIO CITY LANDFILL

    Mr. Hobson. Governor, nice to see you. I have got a couple 
questions for you. Some years ago I had a hard time with a 
previous Administrator, getting her to look at a landfill in my 
district, and finally they began to look at it. You know, it is 
funny because usually Congress people try to keep the EPA out 
of their district this is one time when I tried to get them 
into my district. I finally got them into it, and I am pleased 
that Region 5 is making progress in evaluating the Tremont City 
landfill site.
    In a public briefing held a few months ago, your regional 
staff and four of my constituents said all US EPA investigation 
activities are complete and the draft report is being prepared. 
On the enforcement side, I understand the EPA has identified 
the potentially responsible parties who dumped in the barrel 
fill, and you are working with them to begin the process of a 
remediation facility study. I must admit this process is taking 
quite a while, and we are on 3 years now, and I guess my main 
question to you is, what is the EPA doing to reduce the time 
and cost associated with the site characterization and site 
remediation activities? As I look at this chart that the EPA 
sends out, it will be 2036 before we really get anything 
completed in this, and I don't think the constituents want to 
wait that long to get this stuff done. And I know I am not 
going to be around, but the problem with this is this sits 
right over an aquifer in our community, and how it ever got 
sited here is beyond my dreams, but it did get sited, and I 
think we need to see how we can speed up the timetable on this. 
Do you have any thoughts on that?
    Ms. Whitman. Actually the region expects that the PRP 
action will begin by 2005, that remedial action construction 
will start in 2005. And as you know, the landfill has been 
closed and those post-closure activities are being done by the 
PRP under the supervision of the EPA. So they are trying to 
make sure that the public is protected, but the actual remedial 
construction is due to start in 2005.
    Mr. Hobson. The only other comment I would make on this is 
there seems to be a continuing effort on the part of certain 
people to re-permit in this area, and I think we need to be 
very cautious about any re-permitting or permitting where there 
is an aquifer situation, because once the aquifer is damaged or 
penetrated, the costs and the ability--and this aquifer runs 
all the way down to the Dayton area, not only the Springfield 
region, but it could be immensely costly, and so I would hope 
that the State and the EPA all would continue to monitor this 
to make sure that we don't inadvertently do anything that would 
cause a problem here in the future.
    Ms. Whitman. Absolutely.

                        PESTICIDE TOLERANCE FEES

    Mr. Hobson. I have one other question at this moment that I 
would like to ask about. It is in a totally different area, so 
I am switching on you. I see that the EPA anticipates 
collecting $59 million in pesticide tolerance fees in fiscal 
year 2003; however, you are only obligated to spend $15 
million. Your budget justification states the remaining 
collection will be used at some future time. Since our farmers 
and consumers are the ones that will bear the increased cost of 
these pesticide tolerance fees, I am interested why the EPA 
would think it is in the best interest of the American people 
to collect $43 million more than necessary, and do you have any 
specific plans for spending this money in the near future?
    Ms. Whitman. Congressman, I hadn't known that we had 
anticipated collecting that much in the tolerance fees. Steve, 
you are up on this. Steve Johnson, who is head of the Office of 
Prevention, Pesticides, and Toxic Substances.
    Mr. Hobson. We would all like to see money, but----
    Mr. Johnson. Mr. Congressman, yes, the----
    Ms. Whitman. It is a complicated fee structure, let me put 
it that way. There are a number of different fees.
    Mr. Johnson. Yes, there are a number of fee issues. And 
right now the current statutory authorities that we are 
operating under and the President's budget anticipates a 
collection of tolerance fees, and there are two components to 
the tolerance fees. One, a fee is associated with newtolerances 
for new products coming on the market. Second, a fee is associated with 
reassessing of old tolerances. And current legal interpretation is that 
we are not only authorized but directed to collect fees for work that 
has been done, so-called retroactive work. I think it is an area that 
is still controversial. It is a legal issue that the Agency is 
currently evaluating. But, as the budget is currently constructed, you 
are correct that this $58 million does contain this retroactive fee. 
Those fees are then put into a revolving fund; so they are not, if you 
will, going by the wayside or being wasted, but there are----
    Mr. Hobson. Are you a lawyer?
    Mr. Johnson. No, I am not.
    Mr. Hobson. You talk like one. I was worried we are going 
to get to the number there, whether the number was correct or 
not. See, I never admit I went to law school or I am a lawyer, 
because I lose votes when I do that. But what I am concerned 
about----
    Mr. Walsh. It is on the record now.
    Mr. Hobson. I know it is on the record now. We have a 
camera here, too. I am just concerned that we have got money 
here that was set up, and now the consumer and farmers who will 
tell you they are having a tough time, and then you have got 
these fees that Virgil was talking about, that now the farmers 
are now complaining about because it is coming down to their 
streams where they have got to do all this. And I don't worry 
about these rotating funds or where that money goes. We will 
have to audit that, too, I guess.
    I don't want to do that. I would like to see if we could 
look at the legislation and see if we have to keep taking that 
kind of money, because if I remember correctly, the 
subcommittee allocated $17 million in the 2002 pesticide 
reregistration and maintenance costs while prohibiting an 
increase in tolerance fees. And I guess you might have said 
this, but could you explain why the EPA, despite these past 
prohibitions, has allocated for an increase in the cost of 
these tolerance fees, if that is correct?
    Ms. Whitman. Hope springs eternal. As you know, we haven't 
been allowed to collect those fees since 1999. The total cost 
of the fee is a question of what the program demands of us, our 
ability to review new pesticides, get them into the 
marketplace, available. Many times the new pesticides are less 
expensive for the farmers. They require less per application 
for the farmers, but we need to go through a process to ensure 
that they do what they say they are going to do. The pesticide 
fees are the way we fund the program, but we have not been 
collecting these fees, which is why I was a little thrown off 
by the extra money we would be getting. That one I hadn't heard 
because we have been prohibited from finalizing the rule. But 
we keep hoping, because we feel that that is the appropriate 
way to pay for the kind of work that needs to be done in order 
to get the newest and most environmentally protective 
pesticides on the market.
    Mr. Hobson. But you are going to get more money. You say 
58, we say 59, but it is in that range.
    Mr. Johnson. If we are authorized to allow us to begin 
collecting fees. Currently, right now, we are prohibited this 
year from collecting any tolerance fees other than the current 
level which is about $1 to $2 million per year. When the Food 
Quality Protection Act was passed in 1996, it required the 
Agency to collect the full costs associated with tolerance 
assessment, both for new and old. And so that means a major 
increase for a particular chemical company, for a major food 
use chemical, currently they pay about $30,000 for tolerance. 
That is less than one-twentieth of the actual costs associated 
with the Agency doing the assessment.
    And so therein lies, in one sense, the difficulty; and so 
we continue to collect the $1 to $2 million, which is only a 
portion of the $30,000 per tolerance. The full cost is 
significantly more money and that is how that $58 million is 
derived. But as Governor Whitman has said, we have not been 
authorized to collect any of those fees. The only ones that we 
have been authorized to collect is the $1 to $2 million per 
year at this point.
    Mr. Hobson. So basically in your budget you are 
anticipating that you might be authorized to begin collections; 
is that----
    Mr. Johnson. That is correct.
    Mr. Hobson. Thank you very much. Thank you, Governor.

              WASTEWATER TREATMENT PROCESS: ONONDAGA LAKE

    Mr. Walsh. We will begin the second round, and I would like 
to use this opportunity to talk about a specific wastewater 
treatment process, and maybe we can get somebody within your 
staff to comment on it. But leading up to that, as you know, I 
have been very interested in the reclamation of Onondaga Lake, 
which is in my constituency, partially in the city of Syracuse. 
And as you know, I would love to have you come up and take a 
look at the project. It has been a very expensive project, but 
it has strong partnership from the State and the local 
government and with the private sector. Honeywell, which owns 
the former Allied Chemical site on the lake, is negotiating 
with the New York State Attorney General for a very substantial 
settlement, which would include remediating all the toxins, 
including mercury, that they put into the sediments in the lake 
and the environs. There has been no agreement on the sediments 
yet, but, as you know, the sediments can be a ticklish issue.
    In any event, hundreds of millions of dollars are being 
spent to reclaim this very valuable resource and turn what was 
our community's greatest debit into its perhaps greatest asset. 
Because of the expenditure of public money to reclaim this 
resource, there has been a tremendous increase in private 
spending on the lake and the area around the lake. The lake, 
because it was so polluted and it is a Superfund site, never 
encouraged the development of the properties around the 
shoreline. So it is entirely encompassed by public property, 
which is really a marvelous development if you think about it, 
because it belongs to everyone in the community. So we are in 
the process of reclaiming it and trying to do an 
environmentally sensitive redevelopment of it, and it is a 
cause of great interest, if not pride, yet in the community.
    But the point was, one of the aspects of this project is, 
as a CSO project, closing off combines through overflows in the 
two major streams that flow into the lake, one of them flows 
right through the city. So we are closing off CSOs and taking 
that wastewater that combines storm and sanitary sewers and 
treating it for pathogens and then putting it back into the 
creek.
    There have been a number of proposals on technologies. One 
of them obviously is storage. And when you create storage, you 
can then wait until the storm subsides and the flow reduces, 
and then you can pipe it down to the Metro plant which is under 
major construction right now, about a $140 million construction 
plan to reduce nitrogen, phosphorus, to get it to clean water 
standards. The County believesthat they can reach those 
standards.
    But an interesting proposal was made to me by a local 
entrepreneur who has developed technology that I would like, if 
you could, to have one of your experts comment on it, and the 
idea is you take this stored water which is primarily storm 
sewer runoff from snow melt or rainstorms that does mix with 
sanitary in large-volume events, and pump it out to a remote 
area. Actually, it would be on these former Allied Chemical 
wastebed sites. You can only do this in cold weather, by the 
way and Syracuse has plenty of cold weather. That is one thing 
we have lots of, and you have to have a certain temperature in 
order to make this work. But they run it through like, if you 
have ever been to a ski area, snow-making equipment, and there 
is apparently a filtration process along the way, just a very 
simple filtration process to remove most of the solids, and 
then you just run it through this atomizer. It is working in, I 
believe, Westport, Ontario which also has lots of cold weather. 
It may be one of the few advantages that the Northeast has over 
the rest of the country, lots of water, lots of cold weather. 
But in any event, this atomization process of the water 
destroys pathogens.
    Just to comment--they are doing this, and I had my staff do 
some work on this, and I am going to review the memos. I 
haven't seen them yet--but just to comment if you have heard of 
this technology and what you think of it.
    Ms. Whitman. I'll ask Diane Regas to speak to whether she 
has heard of the particular technology to which you refer or 
not. We are seeing many more innovative technologies coming to 
the fore to address a host of problems, particularly when you 
are talking about water, drinking water, wastewater. This is an 
area of real concern where a lot of investment is being made. 
We are very excited about that and trying to do as much as we 
can to move technologies forward. But Diane, I don't know if 
you have heard of this.
    Ms. Regas. Mr. Chairman, while I haven't heard of this 
specific technology, we would be very interested. We work with 
some of the challenges of dealing with combined sewer 
overflows, and the pure volume of water that can be 
contaminated because of combined sewer overflows or sanitary 
sewer overflows is of concern. You are absolutely right that 
pathogens is one of the major environmental concerns with 
those. So a lot of communities have tried innovative ways of 
dealing with them, and we would be happy to come up and take a 
look or visit with the folks who are coming up with this 
technology.
    Mr. Walsh. Apparently it somehow separates out nitrites and 
phosphorus. So there is a residue because it creates a big pile 
of snow, obviously, and then as it dissipates in the spring, it 
leaves a residue. And what is neat about it if it works is that 
this area that I am talking about is a former waste bed site. 
It was a plant that broke down salt, NaCl, and created 
byproducts and industrial cleansers and so forth. But it very 
basic, alkaline. And this residue, it enriches this waste bed 
area and it becomes very fertile and you can grow grasses and 
plants and so forth. So it sounds great. It is almost too good 
to believe, and usually if it is, it is. But I would be very 
interested in having you take a look at it.
    Ms. Whitman. Certainly. We would be happy to do that.
    Mr. Walsh. Thank you. Mr. Mollohan.

                     SUPERFUND TAX REAUTHORIZATION

    Mr. Mollohan. Thank you, Mr. Chairman. Governor, do you 
support the general principle that polluters should pay to 
clean up toxic sites?
    Ms. Whitman. Absolutely.
    Mr. Mollohan. Last week in a television interview, you 
indicated that the reason for the use of general funds to pay 
for cleanups was Congress' failure to renew the tax. That 
statement left the administration's position on renewal 
somewhat vague, and the President's budget does not deal 
specifically with the tax question. In the budget documents 
submitted by OMB in February, however, there is a simple 
statement that, and I quote, ``The budget does not propose 
reauthorization of Superfund taxes,'' end of quote. The 
statement was buried in staff papers, however, which may or may 
not represent the administration's policy.
    I am asking you, can you tell us whether President Bush is 
opposed to extending the Superfund tax and, if so, why?
    Ms. Whitman. The President did not include the 
reauthorization of the Superfund tax in this budget. That was 
based on two premises: one, that it had not been reauthorized 
since 1995 and the will of Congress seems to be that it not be 
reauthorized; and two, the feeling that it was time to move 
forward with what has been called for by a number of people, 
which is to take another look at Superfund to see what needs to 
be done, if anything, before reauthorization. Then to look and 
see exactly how we are funding the program to make sure that we 
have the right processes in place, that we are in fact 
targeting the right industries.
    Things have changed since the Superfund tax was first 
imposed and there are two parts to that, as you know, but 
reauthorization was not included in this budget.
    Mr. Mollohan. Right. Understand, though, I am trying to 
take the measure of his attitude with regard to reauthorizing 
this tax, and the fact that the Congress has not initiated it 
doesn't dispose of the question of what is his attitude toward 
it. Has he requested a reauthorization of the tax?
    Ms. Whitman. He has not requested a reauthorization of the 
tax.
    Mr. Mollohan. Does he intend to do so?
    Ms. Whitman. You would have to ask OMB.
    Mr. Mollohan. OMB?
    Ms. Whitman. Well, ask the White House or--all our budgets 
go through OMB to one point, but they go to the White House and 
that is a decision by the President.
    Mr. Mollohan. I understand. And you are intricately, I 
would imagine, involved in the process.
    Ms. Whitman. The feeling at this time is that since 
Congress is disinclined to reauthorize the tax. The President 
saw that as an indication that there was some concern with the 
program, which he shares, and a desire to move forward with 
Superfund reauthorization, to take a look at Superfund to see 
what needs to be done to see what we can do about liability 
concerns, and what can we do to make sure Superfund is working 
in the way it was intended to work. Then perhaps at that time 
take another look at whether or not it is appropriate to 
reauthorize a tax of any sort.
    Mr. Mollohan. Have you made any recommendation to him on 
this issue?
    Ms. Whitman. No, I have not.
    Mr. Mollohan. Do you have any recommendation for him on 
this issue?
    Ms. Whitman. At this point I do not, until we see where 
Superfund is going to go overall.
    Mr. Mollohan. Well, the President is wonderful at providing 
leadership when he wants to provide leadership, bold 
leadership, as he has evidenced with regard to the war on 
terrorism. If he has any inclination toward reauthorizing this 
Superfund tax on polluters, which would evidence his embracing 
the principle as you have here, that polluters should pay, then 
he should provide that leadership by least making a request to 
Congress.
    Ms. Whitman. Well, Congressman, I think the important 
thing, and one of the concerns that I know the President has 
had about the way the Superfund tax was imposed, is it is not 
all on polluters. It is on everyone in segments of the 
industry, and on the industry, so that even those who have the 
best of environmental records are also paying it.
    Mr. Mollohan. Calibrating that factor into a new 
authorization would be fine. But if we are unfairly taxing a 
few polluters, you must think it very unfair that the general 
public should pay through general revenues for these cleanups, 
which is what is going to be happening if we don't reauthorize 
legislation based on the principle that the polluters should 
pay.
    Ms. Whitman. First of all, the principle that the polluter 
pays is still very much a part of the overall administration's 
approach, and that is why we are seeing that 70 percent of the 
cleanups are in fact done by the polluter, those who are 
responsible.
    Mr. Mollohan. We do have this reauthorization question 
facing us, do we not?
    Ms. Whitman. We do. I wish I could say that the public 
didn't pay anyway, because even when it is a generalized tax, 
that very often is passed through to the public. The concern 
here is to ensure that the tax is going where it needs to go.
    Mr. Mollohan. I am sorry, I didn't understand what you 
said. Will you say that again, please?
    Ms. Whitman. Yes. The Superfund tax was on everybody, 
including industries that have a clean environmental record. 
The other thing is just my cynical nature in saying that I know 
that companies have a way that, when they are required to pay 
certain things, they recoup those costs and it usually comes at 
the expense of the consumer, that one way or another we pay.
    Mr. Mollohan. But you strongly embrace the principal that 
polluters must pay.
    Ms. Whitman. As does the President.
    Mr. Mollohan. I think there are probably a lot of folks who 
look forward to his leadership by requesting authorization to 
that end. Mr. Chairman, that is the end of my questioning for 
now.
    Mr. Walsh. Mr. Frelinghuysen.

              SUPERFUND SITE CLEANUP: RESPONSIBLE PARTIES

    Mr. Frelinghuysen. It might be not be advisable for me to 
follow Mr. Mollohan on Superfund, but I think the concern many 
of us have--and certainly from New Jersey--we want to get 
things cleaned up. And the question I always ask is what 
portion of the existing sites have responsible parties that 
have been identified that can help pay for the cleanup; and 
what percentage of the national identified sites have no, shall 
we say, responsible party, which therefore places the burden on 
the taxpayers?
    And then there is this view, too--maybe this is just 
newspaper speculation--that the sites that are added in the 
future are sort of these megasites, and there are two that have 
been mentioned. I think one was a mining site somewhere.
    Ms. Whitman. Libby, Montana----
    Mr. Frelinghuysen. Are there responsible parties there, or 
are those the sites that, too, the taxpayers are going to have 
to shell out the money?
    Ms. Whitman. We are still hopeful on Libby, although the 
responsible party has entered into bankruptcy, which has been a 
pattern that we have seen emerging. It is still 70-30. Seventy 
percent of the sites are cleaned up by private parties. We at 
this point in time in our review of sites anticipate that in 
the future 70 percent of the sites will be cleaned up by the 
responsible party, and the remaining 30 percent then devolved 
back to the Agency or the taxpayer. 30 percent will be paid by 
the other revenues, whether we get our revenues from the 
General Fund of the Treasury, or as I indicated this year, some 
money we still have from the Superfund tax that will be used. 
That has been pretty consistent: about 30 percent of the sites 
are what we call ``orphan sites'' where we can't identify the 
responsible party, or that the company has gone bankrupt or 
disappeared or there is nobody there.
    That is why I have called for the pipeline review. That is 
one of the reasons we are doing that in the NACEPT process. We 
need to make sure we are identifying sites correctly, and we 
are prioritizing them in the right way so we are getting at the 
right sites first. We need to be very mindful of public health, 
and ensure that we are doing everything as sophisticated as we 
need to be to ensure that we can identify the polluter.
    We think we have done a pretty good job with 70 percent of 
them being paid for by the polluter, but clearly we would love 
to have 100 percent done by the polluters. It is just not going 
to be possible in all sites because contamination occurred so 
long ago.

                   METHYL TERTIARY BUTYL ETHER (MTBE)

    Mr. Frelinghuysen. I think a lot of what you have done is 
absolutely commendable in terms of expedited cleanups, holding 
people responsible, and certainly in areas where there is a 
density of population. Quite honestly, I am not sure how much 
population there is out in Montana and Nebraska, but for those 
of us in the Northeast we hope that the so-called garden 
varieties of cleanups still get your Agency's attention, and I 
am sure that will be the case.
    Shifting gears, could you bring the committee up to date on 
what we are doing with this MTBE? I know that I read of some 
sort of compromise in the Senate which involves ethanol, but 
the committee has focused here in the past on the whole issue 
of banning its use sooner rather than later because of the 
widespread of pollution of a variety of different water 
supplies and aquifers. And here again something sort of went 
off--it didn't leave my radar screen, but it sort of left the 
public's radar screen. Where do we stand? Where does the EPA 
stand?
    Ms. Whitman. We have been very concerned about the 
migration of MTBE into water bodies. Fortunately, if there is 
any good news with it, the health concerns do not appear to be 
as significant as people would gain from the nastiness of the 
smell and the way it impacts the water. People certainly don't 
drink water with MTBE in it. And as you knowfrom New Jersey, we 
have had a number of people that have indicated that they have felt 
health concerns, headaches and other allergic reactions, to the 
gasoline when MTBE has been added to it.
    The Senate bill on energy does include a provision for the 
banning of MTBE, and the Energy Department has endorsed that 
bill. The administration's position has been to endorse that. 
Also I believe that that bill also eliminates the 2 percent 
oxygenate requirement for gasoline. That would be something 
else that the Department of Energy has endorsed.

         NEW YORK/NEW JERSEY PORT DUMP-OFF: PEER REVIEW STATUS

    Mr. Frelinghuysen. Looking towards the port of New York and 
New Jersey, the infamous dump-off of the State, can you give me 
a brief update as to where we stand on that? I understand that 
there has been an ongoing peer review in terms of what is 
suitable for capping that 57 acres and that there has been a 
formal report in the making for some time, and I think last 
year you made mention that a draft proposal would be ready 
soon. I just wonder where we stand on the report. I understand 
that materials are being dumped, but that they are absolutely 
pristine and clear. So I am sort of looking for a higher level 
of reassurance of where we stand with this report.
    Ms. Whitman. Region 2 is the lead on that, as you know, 
Congressman, and not headquarters. There has been an exchange 
of information that took longer than anticipated, there is no 
question about that, but the feeling is that that time invested 
was worthwhile. In January, EPA and the Corps of Engineers 
hosted a meeting with the scientific, peer reviewers of that. 
The human health scientific peer review is now underway, and we 
expect to initiate the ecological review this summer. So things 
are proceeding at the site.
    Yes, you are right that material continues to be delivered, 
but that is material that has been deemed to be within the 
standards that are set for site and pose no threat to human 
health. The proposal for it was sent to the peer review panel 
in January of this year, so we are moving forward.
    Mr. Frelinghuysen. Mr. Chairman, I would like to amend my 
compliments. I am sure region 3 deserves some recognition, but 
I should have been referring to region 2 in my earlier remarks 
this morning. So if anyone felt insulted----
    Ms. Whitman. Region 3 carried the burden for the anthrax.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Walsh. Thank you. I complimented region 3 earlier.
    Mr. Price.

                         CLEAR SKIES INITIATIVE

    Mr. Price. Thank you, Mr. Chairman. Governor, let me turn 
to clean air and the way the various clean air initiatives 
underway might intersect. A recent study in the Masthead, a 
medical research publication, linked ozone air pollution to 
actually causing asthma in children. A separate study published 
in the Journal of the American Medical Association links 
particulate pollution to causing emphysema and chronic 
bronchitis in adults. Another study recently published in the 
American Medical Association Journal concludes that long-term 
exposure to fine particles of air pollution, coal-fired power 
plants, factories, and diesel trucks is linked to an increased 
risk of dying from lung cancer.
    Now, these studies underscore the proposition that air 
pollution directly affects the health of Americans, and despite 
the progress we have already made, we need to continue to press 
ahead. Can you update us on the status of the implementation of 
the 1997 ozone and fine particulate matter standards?
    Ms. Whitman. We are continuing to move forward with those 
regulations. As you know, we went ahead with the diesel fuel 
and the lower sulfur content in gasoline and in fuel and the 
impacts, and we are continuing to move forward with those other 
regulations.
    Mr. Price. It is sometimes confusing when you try to keep 
track of the regulatory activity and the judicial activity 
related to these regulations. In addition to these 1997 ozone 
and fine particulate matter standards, there are currently 
pending lawsuits challenging the current New Source Review 
enforcement policies. We are still in the midst of implementing 
the new ozone transport regulations. And the administration has 
now proposed a new initiative to reduce emissions of ozone, 
sulfur dioxide and mercury.
    I wonder if there is anything you can tell us here today, 
but perhaps more expansively for the record, to help us 
understand whether and how all these pieces fit together. Would 
progress in one of these pending policy areas contribute to the 
resolution of conflict regarding other policies? For example, 
would the implementation of the 8-hour ozone standard require 
the kind of upgrades to older coal-fired power plants that are 
the objectives of the New Source Review enforcement policies? 
Alternatively, would the administration's Clean Air Initiative 
require some of the same kinds of pollution controls as the New 
Source Review enforcement actions-or the 8-hour standard for 
ozone? How far would the Clean Air Initiative go in reducing 
levels of ozone relative to the pending 8-hour standards?
    The bottom line for how we proceed, it seems to me, is to 
ensure that we do not lose ground, that we do not stall our 
progress in reducing air pollution that clearly affects the 
health of Americans. Is the administration's intention, for 
example, to move any increased flexibility on the New Source 
Review requirements in tandem with legislative action on the 
clear air initiative or progress on the 8-hour standard? You 
get my drift?
    Ms. Whitman. I do.
    Mr. Price. There is an intersection here that I think is 
poorly understood, and as I said, it is a bit much to ask you 
orally to pick your way through all of this, but could you say 
what you can say now and perhaps supply for the recordsome 
sense of how and why we can expect that the net outcome of these 
different actions is going to be continued progress in cleaning up our 
air?
    Ms. Whitman. Well, Congressman, you have touched on the 
nexus of all of the concerns that we have, which is under the 
Clean Air Act we have a number of individual requirements that 
are scheduled to come into effect. Some are in enforcement now. 
Others are regulations that are coming into place at different 
times, setting different standards for the various emissions 
from companies, and from power plants in particular. That is 
cumbersome, it is confusing, and it can be very expensive. That 
is why the President proposed the Clear Skies Initiative, which 
would ensure it sets mandatory targets now, with reductions now 
on all three Pollutants: on SO<INF>2</INF>, nitrogen oxide, 
sulfur dioxide and mercury. Those would be mandatory caps. 
Based on the analysis that we have done, the targets they 
would, in fact, get us faster reductions in those three major 
pollutants at less expense than under the current Clear Air 
Act.
    Having said that, nothing implies a rollback of the Clean 
Air Act. We do believe that we have a very real possibility of 
reducing the paperwork burden on some of these regulations when 
and if Clear Skies is, in fact, enacted by the Congress. It 
depends on where the levels are set, but as the President 
proposed, we would certainly say that New Source Review, as it 
applies to utilities, not to the other sectors but to 
utilities, would be redundant because we would be getting 
better reductions under Clear Skies than we would get under New 
Source Review.
    We see a 70 percent reduction in these three pollutants, 
under what the President is calling for. By 2010, you would 
have a 25-million-ton reduction in SO<INF>2</INF>, greater than 
you would get under the current Clean Air Act; a 10-million-ton 
greater reduction in NO<INF>X</INF> than you would get under 
the Clean Air Act; and a 20-ton better reduction of mercury 
under the Clear Skies proposal than under the Clean Air Act.
    Those are real numbers. A part of what we would need to do, 
when we get the final numbers is identify which of the 
regulations become redundant. It is not that you are in any way 
weakening the Clean Air Act or our commitment to achieving 
cleaner air. It is, in fact, endeavoring to do it faster at 
less expense to the consumer, because ultimately they pay 
whenever it costs a utility.
    We are very hopeful that this program will allow us to 
capture these emissions reductions in a very efficient way and 
in a way that is even better than what we can expect to get 
under the Clean Air Act. We plan to move forward with a 
reassessment of all of the other regulations that we have in 
place that are geared to achieving standards, and lowering 
amounts of particulates that can be emitted or emissions that 
can be emitted into the atmosphere. This could do it faster.

                   OZONE AND FINE PARTICULATE MATTER

    Mr. Price. Would that same reasoning apply to the 1997 
ozone and fine particulate matter standards, that we are going 
to either meet these goals or do better?
    Ms. Whitman. This would certainly have an impact on 
particulate matter, and, again, what we are doing now is going 
back through and taking another look to make sure that we are 
comfortable that anything that we would recommend being 
alleviated, let us say, does not do so with any harm to the 
atmosphere. We are going to be looking at every one of the 
regulations that apply to clean air. Once we have the Clear 
Skies Act passed, once we have standards and we know what the 
standards are, then we will be able to look at all those other 
regulatory programs that are designed to capture these 
particular emissions and see whether or not we need to continue 
along the same regulatory path that we are on today.
    Mr. Price. To the extent that analysis is available before 
these hearings----
    Ms. Whitman. Certainly.
    Mr. Price. [continuing]. Go to press, I would appreciate 
any further elaboration of those assurances that you might be 
able to furnish for the record.
    Ms. Whitman. Is there Anything else you wish to add?
    Mr. Price. Thank you.
    Ms. Whitman. We would be happy to do that.
    Mr. Price. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. Mr. Cramer.

                           NEW SOURCE REVIEW

    Mr. Cramer. Thank you, Mr. Chairman.
    Administrator Whitman, welcome back before the 
subcommittee. I regret that I had to leave the room and perhaps 
missed the line of questioning that some of my colleagues might 
have taken you into that I want to take you into as well, but I 
want to talk to you about the New Source Review. Back in 1999, 
TVA, Tennessee Valley Authority, was sued by EPA--it wasn't 
just TVA, it was TVA and eight other major utility companies--
for failing to comply--or for being in violation of the Clean 
Air Act.
    The issue I want to get your comment about is the routine 
maintenance issue versus substantial modification of plants. 
That seems to be the two different phrases that would be in 
contention here regarding TVA. TVA is in the middle of spending 
$2.5 billion to clean up emissions, and we think they are doing 
a very good job, and yet they are caught in what seems to be a 
Catch-22, that any modifications that they make, even with 
emission controls, could be cited by EPA as something in 
violation of the Clean Air Act. Would you respond to that, if 
you can?
    Ms. Whitman. Congressman, I can't respond in any detail on 
the particulars of the TVA case. Oral arguments for that case 
have been set for the third week in May. We believe it is a 
very strong case. Justice has looked at all of those cases that 
were brought under New Source Review, and said they were 
brought appropriately, so we are continuing to prosecute them. 
However, the issue of the routine maintenance repair--and what 
is the third R? Replacement. I forgot it. Routine maintenance 
repair and replacement is one of the issues that has been 
brought up time and again as being of concern under the New 
Source Review.
    It is important to emphasize that there are two different 
parts of New Source Review reform. In 1996, the previous 
administration proposed some rules that would streamline some 
aspects of New Source Review and were subject to public 
hearings. That proposal was subject to public hearings and 
comment and the full regulatory process.
    The routine maintenance repair and replacement provision is 
one aspect of another set of concerns that has been raised 
about New Source Review, but that has not been subject to the 
full regulatory process. It has not, in fact, been even 
submitted as yet in a proposed regulatory reform. Were the 
proposal to go forward in that fashion, it would be subject to 
the full-blown process, which can take up to 3 years.
    Mr. Cramer. When will the administration release its report 
on New Source Review, or were you discussing that already?
    Ms. Whitman. No, we haven't discussed that already, but 
that is still a subject of discussion. We were tasked by the 
Energy Policy Committee to do a 90-day review of policy on New 
Source Review. It is an enormously complicated issue and one 
that requires a great deal of time and attention. We are still 
in the process of finalizing that and finalizing the 
recommendations that we would make relative to New Source 
Review reform. The Clear Skies proposal that we worked on for 
the President, is the best form of New Source Review reform 
that we could possibly implement. For utilities, the Clear 
Skies proposal, as outlined by the President, would make New 
Source Review as it applies to utilities redundant.

                DRINKING WATER VULNERABILITY ASSESSMENT

    Mr. Cramer. I want to switch now to the drinking water 
vulnerability assessments. In the fiscal year 2002 supplemental 
bill, there was $90 million appropriated for EPA. I am 
interested in rural areas and in their opportunities to 
participate in vulnerability assessments. Those rural areas or 
small communities have urged EPA to reserve a minimum of 15 
percent of the funds for drinking water vulnerability 
assessments for small communities. What progress or what 
comment can you give me on that?
    Ms. Whitman. Congressman, what we have determined is the 
most important responsibility we have in this area is to make 
the most systems as secure, the safest, the fastest we can. 
That does not mean that we are not putting aside a specified 
percentage of the monies for the small water systems. But, the 
focus has been on the larger ones in order to ensure the safety 
of the greatest number of people.
    However, we are working very actively with the smaller 
water systems, and will be providing technical assistance on 
vulnerability assessments. We vastly moved up the time frame 
for vulnerability assessments training. We are providing 
technical assistance, and we are also working with them to help 
identify dollars that would be available to enable them to move 
up their vulnerability assessments.
    Mr. Cramer. Well, I don't always like mandatory figures, 
but I want you to be sensitive to the smaller communities as 
well, and it sounds like you are. And I want to encourage you 
to continue to do that.
    Ms. Whitman. We certainly will. We are very concerned about 
that, but we are trying to prioritize where the greatest 
threats are and where we need to focus the resources first.
    Mr. Cramer. Sure.
    Mr. Chairman, thank you.
    Mr. Walsh. Congresswoman Northup.

                          EPA GRANT MANAGEMENT

    Mrs. Northup. Yes. I would like to follow up with some 
questions I have asked in the past about EPA grant management 
and in particular what is being done to get control of the 
grants that EPA has administered that--certainly I have a copy 
of the GAO report. It seems to me like this falls into sort of 
two categories, but they impact each other. One is the fact 
that grant recipients often don't complete the work that they 
say they will do. There is very inadequate oversight on whether 
or not the money is spent as it is supposed to be spent for 
allowable expenses. Instead it is used for meals that overrun 
the costs that they are allowed for and so forth. But I think 
probably the failure to complete the work and receive a new 
grant while work is still unfinished is, in that category, the 
more troublesome.
    And let me just say this is an issue that I asked the 
previous Administrator about in great detail and got 
information that it seems to me like recent GAO reports have 
not substantiated. So I realize that you have inherited quite a 
mess here.
    The other side of the area that bothers me is the use of 
this grant money for purposes that go beyond what should be 
allowable, particularly political purposes, and if someone who 
is in a district, who has huge numbers of ads and political 
activity by groups that come into my district without a 
recognizable face--truly they fly into town withnot one person 
there at the press conference that lives in my district to host press 
conferences and put out their political misinformation--it concerns me 
that they are being funded in part by EPA grants.
    I think it is sort of hilarious that in one of the articles 
I have here, one of the recipients is quoted as saying, EPA 
grants are very, very discrete projects. You have to identify 
ahead of time what you are planning to do, meaning you can't do 
anything like political activities. Of course, in light of the 
GAO report, it is clear that no one has any idea what these 
groups do with the money anyway, and number two, we all know 
that cross-subsidies are possible.
    And I just sort of wondered if you could give me any idea 
what you are doing, what other areas GAO might look at to give 
us a clearer picture of just what the extent of the problem is, 
and, you know, a request we might make, if you think that that 
would be helpful.
    Ms. Whitman. Well, Congresswoman, I heard you and other 
Members of Congress on the Hill loud and clear as well as 
having our own concerns about some of the oversight. One of the 
most effective ways, in addressing the issue is to move toward 
a competitive process for nonprofit grants. We expect, in fact, 
to have a process in place by October of this year that will 
move us to a competitive process for nonprofit grants. That 
combined with an increased emphasis on oversight, by requiring 
that those recipients do report regularly to the Agency, and 
that we have some way of ascertaining the accuracy of those 
reports is also at a priority for us. We are moving forward to 
ensure that all of the taxpayers' grant money that goes in 
grants is, in fact, spent for the very complicated, very 
important areas of review for which they have been selected.
    Mrs. Northup. You know, I actually think the nonprofit 
community can provide great educational benefits, and I notice 
that some of the press has sort of ridiculed some of the 
studies that have been done, everything from what chemicals are 
applied to golf courses and so forth.
    I have to tell you I don't object to EPA funding reviews of 
all sorts of environmental activities that Americans take place 
on. I think we deserve to know whether even walking across a 
golf course is harmful to our health. So I have in no way an 
objection to EPA providing as broad-based a network as they can 
of looks at the environmental impacts on our lives and to 
provide educational efforts to bring that to our attention. It 
is the misuse of money that I object to.
    I would like to just make one suggestion along those lines. 
It is my understanding, as I looked at some of this in great 
detail, that some of the groups, even if they have a review, 
they then subcontract out to other nonprofits to do portions of 
their work, and at that point many of these nonprofits have 
more than one--is it called an EIS number or something like 
that? So that when I ask for--I can't think of what that--some 
identifier, a number that is, an identifier--that all of 
those--that an organization has to be consistent with what the 
identifying number is that they use, and that all 
subcontractors have to be identified by their number, so that 
an organization that receives multiple subcontracts, enough 
that they would be over whatever the level is for an audit, 
that if their aggregate total grants are over that, that they 
would receive an audit.
    It is the lack of consistency in using the same identifying 
number and the packet that subcontracts--one organization could 
actually contract and receive many subcontracts that would add 
up to over that amount, but they would never appear on any sort 
of printout of who might have a contract under EPA guidelines.
    Ms. Whitman. We are looking at this whole area very, very 
seriously. We are working on developing an order that will 
replace the current guidelines with an actual order, that will 
address a number of these issues.
    Mrs. Northup. Okay. Thank you very much.
    Mr. Walsh. We have just one more questioner this morning, 
Mr. Goode, and then I think we will take a break, which will 
put us around noon, and then we will reconvene around 1:30. And 
I would like to see if we can get the other Members who weren't 
able to join us this morning, and we will go until as long as 
there are questions or until 4:30, whichever comes first.
    Mr. Goode.

               ENVIRONMENTAL REGULATIONS: ECONOMIC EFFECT

    Mr. Goode. Mr. Chairman, this is maybe more of a comment 
than a question.
    I know you get a lot of persons wanting more regulation, 
and I want to give you a few specifics from my district. 
Lunenburg County unemployment, around 14 percent. There was a 
company there this year employed 75 persons, had been in 
business for decades. The EEQ, because they burned something--
and I don't even know what it was they burnt--said they were 
going to have to come down and do an investigation and do a lot 
of testing. Well, the company said, hey, you know, we have been 
here. We are employing 75 persons, but we can't put up with all 
of this stuff, we are closing our doors. So they went out of 
business on January 1. We lost 75 jobs. The unemployment is 
already 14 percent. It is a tobacco-growing area, and you know 
what a horrible attack the last administration did on tobacco. 
I want to thank you for being much more balanced than your 
predecessor.
    Another situation, specific, Henry County 3 years ago, they 
wanted the copper to come out of the water that the persons on 
the Henry County PSA--the copper level to be lower than the 
natural copper level in the Smith River.
    We negotiated with EEQ and EPA on that and got some relief, 
but we had outsiders come in. I don't know if they got any of 
the grants Mrs. Northup was talking about, but they were down 
there beating the drum for this copper level, and that was 
great for them, because they weren't going to have to pay the 
water bills that the people in Henry County were going to have 
to pay, jacking them up about $20 per month to meet the 
standard. And the copper wasn't dangerous to the health of 
humans. It was some weed over in the Smith River that they were 
concerned about.
    I will go on down to Martinsville and Henry County again. 
The unemployment now there is between 13 and 15 percent. 
Martinsville is the city, and Henry County is the county. Henry 
County has about 55,000 in Martinsville city. Both are losing 
people. It has about 17,000. I will give you a few of the job 
layoffs we have had there. VF Knitwear, 3,000 people going 
completely out of business. They are going to Mexico. Tultex, 
home-grown, primarily local money there, they went out of 
business, several thousand people, 2 years ago. They didn't go 
to Mexico. Furniture is fast going to Mexico and China. We get 
a lot of Trade Act assistance in Martinsville and Henry County. 
I am thankful for that.
    Let me tell you some of the reasons they are leaving 
ourarea. Henry County on a per capita basis had more manufacturing than 
any other jurisdiction in Virginia, and now it is all going to China 
and all going to Mexico. One of the factors is they don't have to--they 
say they don't have an EPA over in Mexico, and they don't have one in 
China, and they don't have all of the labor demands. They can go over 
there and pay them a lot less labor.
    The point is we are losing a lot of manufacturing jobs, and 
environmental regulations, I want clear air, I want clean 
water, but I want the people to have some money so they can get 
some food and get the basic necessities of life. And the 
unemployment is going up, and a factor in it is overregulation 
in this country. They are all going to China and Mexico, and I 
want to know if they have an EPA in China and Mexico.
    Ms. Whitman. Well, I know that China has begun to take a 
very hard look at what is happening with its environment. It 
has actually changed its mix of energy, and we are looking very 
closely. We have two entities, NADBank and VEC, that fund 
environmental projects along the border. The President has been 
working very closely with President Fox, and I have with my 
counterpart in Mexico, to address issues of air quality and 
water quality as they impact the border.
    That is not to say they have the same kind of regulation as 
we do in place, but they actually have recently agreed to 
establish something like our Toxic Release Inventory for the 
first time. They are starting to take steps to ensure that they 
are getting a better understanding of what, in fact, is being 
put into the atmosphere and looking for ways to reduce that 
burden to protect their populations as well.
    It is really a question of helping with technical 
assistance and ensuring that they have the wherewithal to do 
the job. But the sensitivity to the importance of environmental 
protection has risen greatly in Mexico.
    Mr. Goode. But not quite to the same extent in China.
    Ms. Whitman. Not the way we have it here.
    Mr. Goode. If I were a manufacturer looking to start up a 
business, I would say that it would be much easier for me to 
comply with the rules and regulations in Mexico and much easier 
for me to comply with the rules and regulations in China than 
it would be in the United States. That is a true statement, 
isn't it?
    Ms. Whitman. It is probably a true statement, but as trade 
promotion authority is discussed, and as other trade measures 
are discussed, giving the President the ability to deal with 
these issues, those are some of the issues that are coming to 
the forefront. So in the Chilean Round, and in all of the 
current trade negotiations that are under way, there is a 
recognition of environmental impacts and the uneven playing 
field and the need to provide some relief so that U.S. 
companies and businesses are not adversely impacted by 
environmental regulations. We are still maintaining standards 
that are important to public health.
    Mr. Goode. All right. Thank you for the opportunity.
    Mr. Walsh. I believe that concludes this morning's round. 
Thank you very much for your testimony, and we will reconvene 
at 1:30. The committee is in recess until 1:30.
    [Recess.]
    Mr. Walsh. This subcommittee will come to order. Here we 
are for the second round and why don't we go to Mr. 
Knollenberg, who was not able to be here this morning, and then 
I will be going to Mr. Frelinghuysen, and then come back to 
myself.
    Joe, go ahead.

            EGU/NO<INF>X</INF>: MICHICAN GROWTH ASSUMPTIONS

    Mr. Knollenberg. Mr. Chairman, thank you and welcome, 
Administrator. Nice to have you here. I have a couple of 
questions for you, and maybe you can help us get on the road 
with respect to the progress, or maybe the lack of progress we 
have had on a little matter called the EGU, which I know you 
are familiar with. It has to do with the NO<INF>X</INF> budget, 
and I have got some frustration myself about the lack of 
response the EPA has given the State of Michigan concerning the 
growth assumptions on the EGU. Last year, and you have got the 
letters from the congressional delegation, from Governor Engler 
and others, as to putting some emphasis and focus on this, and 
I think the resolve that we have seen from the EPA hasn't given 
us any kind of clear directive as to when to expect the 
ultimate decision by EPA as to how you are going to rule.
    The Michigan Department of Environmental Quality and the 
Michigan Public Service Commission have made a strong case that 
the methodology used by the agency kind of underestimates the 
actual rates of growth that have been observed over the last 5 
years in Michigan. The courts have also raised that issue, and 
I don't have to read the report or the explanation that they 
provided on last May 15, but one of the things they make very 
clear in their statement is that the EPA claims it made a 
reasonable choice and it may be right, but simply to state such 
a claim does not make it so.
    There must be, as they go on to say, an actual reason 
articulated by the agency at some point in the rule making 
process. They state there is none here. As a result, we have no 
choice but to remand the EPA's EGU growth factor determinations 
so that the agency may fulfill its obligations to engage in 
reasoned decision-making on how to set those growth factors. In 
a letter sent--a variety of letters went back and forth, but 
one dated on the October 30, I guess it was, of last year from 
Mr. Jeffrey Holmstead, I believe. Is he in the room too?
    Ms. Whitman. No, he is not. He will be back.
    Mr. Knollenberg. There was a statement to indicate that a 
view would come forward and that the decision that EPA was 
making could be determined to be supported with a more robust 
explanation.Well, I don't know what that means, but I do know 
that we are still waiting for an explanation. And in the second to last 
paragraph in that letter of October 30, it indicates that in November 
of last year there would be a resolve in some explanation coming 
forward. Now, I understand nothing has come forward. Is that true? We 
have received nothing that I know of.
    Ms. Whitman. That is correct, and in fact, we are 
anticipating having that ready by March, the end of this month.
    Mr. Knollenberg. Did I hear that Mr. Holmstead just came in 
the room?
    Ms. Whitman. Yes. He can come right up here and describe 
the difference between a robust and just a plain old answer.
    Mr. Holmstead. Thank you for including me.
    Mr. Knollenberg. I really would like to know what a more 
robust explanation is, and if you just entered the room and 
didn't hear some of the preliminary, we are looking for a 
response relative to this NO<INF>X</INF> issue that we have 
been scrappling with you for some months now, and you indicate 
in that letter of October 30 that there would be something 
forthcoming in November of 2001. Now, the administrator tells 
me now that is going to be in March of 2002. This is March of 
2002; so when is that explanation going to come forward so we 
can establish some rulemaking here on this issue?
    Mr. Holmstead. What we are still planning to do this month 
is a response to the remand from the court that would require 
us to either simply further explain or propose to change the 
growth factors that we used in setting up the budgets for the 
NO<INF>X</INF>-SIP call. That is what we plan to do by the end 
of this month under the schedule that we have, I think, given 
to you and to others.
    The real issue, as I think you know, is some concern that 
in setting up these budgets, the Agency underestimated growth 
in different specific states, and that is an issue that we have 
spent a fair amount of time looking at. You know Russ Harding I 
am sure. I have spent some time talking with him about it. One 
of the things we want to make sure that everyone understands is 
that for purposes of setting up the budgets for individual 
States, we have looked at the growth factor for heat input. 
What the State is concerned about is not the growth factor for 
heat input but the growth factor for electricity demand, which 
are different things.
    So what we are trying to do is work through with them the 
difference between the heat input, which only deals with 
electricity generated by fossil fuel plants and electricity 
demand which can be satisfied in a number of other ways. I know 
one of the issues that has come up is a concern that growth in 
the State already was higher in the first couple of years than 
we predicted it would be over about 7 years.
    As I understand it, that has to do with at least in part 
with the fact that a nuclear plant actually went down for 
maintenance for a couple of years, and as a result, the fossil 
fired plants needed to make up that difference and you had a 
significant growth in heat input. Since that nuclear plant has 
come back.
    Mr. Knollenberg. Which nuclear plant are you talking about?
    Mr. Holmstead. I don't recall the name, but I know it is 
located in Michigan. There was a plant that was down----
    Mr. Knollenberg. It was not a big one.
    Mr. Holmstead. It provided, I think, 10 percent of the 
electricity in the State.
    Mr. Knollenberg. We will get to the bottom of that but go 
ahead.
    Mr. Holmstead. Since that plant is back up now, the heat 
rate has actually decreased over the last 2 years, as opposed 
to increased. We are trying to smooth out that bump if there is 
no reason to believe that the plant will be down again anytime 
soon. What we are trying to do is look at a broader historical 
pattern to make sure that we are getting it right.
    Mr. Knollenberg. What we are frustrated with is the fact 
that we have received nothing, and the promise has been made 
that it would be forthcoming, and it simply hasn't come, and 
the frustration runs right through the entire Michigan 
congressional delegation. The Governor has repeatedly weighed 
in on this, and he is still weighing in, I am sure. So we would 
like to see some action in the time frame you have just 
indicated, sometime in March, so we have some idea about what 
to anticipate here. I think it was the Cook Nuclear Plant, by 
the way, that you were referring to.
    Mr. Holmstead. That sounds right.
    Mr. Knollenberg. But that has been our concern. We feel 
that there is a flaw in the formula, if you will, that you are 
using here, but we need to debate that and talk it through and 
resolve it so that we have something we can go home with. And I 
appreciate your response to that, and I look forward to that 
answer as soon as you can provide it.
    Just touching on one other thing, and Mr. Chairman, how 
much time do I have left there? I am not sure where I am going 
to go unless I have the time----
    Mr. Walsh. 3 minutes.

                     GRANTS MANAGEMENT: NONPROFITS

    Mr. Knollenberg. 3 minutes okay. I will make this comment, 
and I understand it was covered this morning with respect to 
the $2 billion in EPA grants to nonprofits and where some of 
that money went, and I presume you have gone through all that, 
so I am not going to fertilize that again, but I think there 
are some questions we should raise there, quite honestly, and I 
hope that according to the information I have gotten, you are 
looking into resolving or making a change to the kinds of 
grants that are made to these nonprofits.
    Ms. Whitman. We are going to go to a competitive structure 
for grants for nonprofits. At the same time, we are going to 
enhance our oversight and requirements for grant recipients so 
that we make sure we have regular reporting. We are staying on 
top of them, and we do reach that nexus. Where there is a 
possibility to audit, we will do it.

    COMBINED SEWER OVERFLOWS (CSOS)/SANITARY SEWER OVERFLOWS (SSOS) 
                               PRIORITIES

    Mr. Knollenberg. I may not have enough time to get through 
this one, but it is on the CSOs and the SSOs and the role of 
the Federal Government in addressing the problem of combined 
sewer systems. I think it has been said in my home State of 
Michigan that the needs are estimated to be 5.1 billion. We are 
trying to cut some of those costs down by doing some things 
that are sort of high tech, such as putting in a liner in some 
of these older systems, which greatly reduces the cost and it 
certainly doesn't decrease the efficiency, it improves the 
efficiency.
    So some of those things are being done, but even so, and I 
think last year you said that one of your priorities wasthe 
wastewater infrastructure, and I would hope that that is still the 
case, and if there is any brief comment you can make on that as to what 
are your priorities, and when are you setting those out to be 
accomplished relative to the CSOs and the SSOs.
    Ms. Whitman. Well, the CSOs and SSOs continue to be a huge 
challenge that we all face. As I indicated last year, this is 
an area where I believe we need to have a very strong and 
engaged relationship with the Congress to try to figure out 
answers as we go forward, because it really impacts on all of 
the water challenges we face from drinking water to the 
combined sewer overflow to the sanitary sewers. We are 
developing a regulation to better clarify SSO requirements. We 
are moving forward with that.
    There are about 200 municipalities in the State of Michigan 
that have experienced SSO overflows in the last 5 years. We are 
working very closely with the State to address those issues. 
The technology to which you refer is the kind of thing that we 
are looking at to see the impacts. The Chairman talked about 
this a little bit earlier today, we are looking at anything 
that will help States and communities to reduce costs and yet 
meet the challenge that is posed. We are looking forward to 
continuing to work with everybody on this issue, but it also 
goes to the bigger issue that we face in water. It is not just 
the sewers and the sanitary sewer and combined sewer overflow, 
but it is also in the drinking water and clean water.
    All of those things are interrelated. I don't think we can 
honestly separate out any of them for the long term. We need to 
decide on how we can move forward, and what kind of a program 
we need to put in place to look at all of them, although we 
have specific regulations we are developing to clarify on SSO.

          COMBINED SEWER OVERFLOW CONTROL AND PARTNERSHIP ACT

    Mr. Knollenberg. A closing comment on this subject, and I 
know my time is probably running shy, the Congress has spoken 
on this issue. As you know, they passed the Combined Sewer 
Overflow Control and Partnership Act, and it was one of Jim 
Barcia's, he was the author of that in the 106th Congress. So 
that is, I think, a Michigan perspective maybe, but it also has 
been embraced and endorsed by a number of members all over the 
country, so it is a huge issue, and I am glad to hear you say 
it is still a priority. It is a huge priority, and I guess it 
has to remain that way. We can talk later if we have time, Mr. 
Chairman, about some of the funding that might be arranged to 
accomplish that success----
    Ms. Whitman. Congressman, if I could, one of the things 
that I have been saying repeatedly is, I believe water is going 
to be our major environmental challenge of the 21st century. 
This is so in particular because the costs that we are looking 
at are so enormous, and so the challenges we face are huge.
    We are talking about now not just point source pollution. 
We have picked the low hanging fruit, as it were. We have done 
the easy things. Most of those pipes that directly discharge 
into bodies of water have been dealt with, or at least they are 
pretty easily identifiable. Now we are talking about watershed 
base management, and that is going to take a whole different 
approach. It is going to take education of the public so that 
they understand that actions far away from a body of water can 
impact on that body of water, and just the very basic 
information on how do we deal with the sewers and overflow 
problems that we have and the infrastructure dollar 
requirements that are going to be required.
    Mr. Walsh. That is exactly why Congress's prerogatives 
should be respected by the administration.
    Mr. Frelinghuysen.

                              ENFORCEMENT

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Governor, could 
you talk a few minutes about the whole issue of enforcement? 
There have been a lot of charges and countercharges going back 
and forth here in terms of what the EPA is doing to enforce 
existing laws. Could you clarify what exactly what we are 
doing, you are doing to uphold the laws?
    Ms. Whitman. Certainly. I would be happy to. We continue to 
vigorously enforce the laws. And, in fact, last year was really 
one of the outstanding years. We saw an increase in the number 
of dollars spent by responsible parties in cleanup, in 
penalties that they face, and the number of cleanups that were 
undertaken. Also where those responsible parties didn't come 
forward in working with us, there was an increase in jail time 
served. We continue to maintain a very vigorous enforcement 
program. We are projecting that we are going to continue that 
kind of enforcement effort.
    We certainly don't intend to back away from our 
responsibilities there, and so we think that we are going to 
continue to see the kind of message get out that needs to get 
out. We are willing to work with you if you are going to work 
with us but if you are not, we are going to make sure that you 
then are held responsible for your actions.
    Mr. Frelinghuysen. Those who suggest that somebody's trying 
to weaken the rules, that is not in anybody's game plan?
    Ms. Whitman. No, it is not. Some people have said that we 
are projecting a lower amount of inspections, and a lower 
amount of enforcement actions. We always have projections that 
are lower than the actual numbers. We always do better than we 
anticipate. As far as inspections and enforcement are 
concerned, and where our focus is, on the actual enforcement.
    I believe that the important thing for us always to 
remember is you can play a numbers game a lot of different 
ways. The important thing is are we making improvements to the 
environment. Are we actually seeing sites cleaned up? Are we 
going after, as we had the discussion this morning, on polluter 
pays? Are we going after that? And last year's numbers, as I 
said, really were record-setting as far as the amount of 
cleanups that were undertaken, the number of enforcement 
actions that were taken, and the amount of money that those 
responsible parties were forced to spend to clean up their 
activities. That is a good indicator of where we are going.

           HOMELAND SECURITY: RESEARCH AND TECHNOLOGY FUNDING

    Mr. Frelinghuysen. Changing the subject, sort of going to 
the issue of homeland security, the President's budget requests 
an additional $75 million to conduct research on better 
technologies and assessments to cleanup buildings contaminated 
by biological and chemical agents. I would assume some of that 
money is for other related purposes.
    Ms. Whitman. Yes.
    Mr. Frelinghuysen. Could you talk a little bit about that, 
and is there a linkage between what you are doing and the 
efforts of other Federal agencies?
    Ms. Whitman. We work very closely with our Federal partners 
on these initiatives and particularly in the area of 
inspections and in research, we are working very hard 
inresearch. The activities that would be paid for included under that 
$75 million are to develop better methods for rapidly detecting 
contaminants so that we are able to respond more quickly, and 
technologies for better decontamination procedures. We are working very 
closely with the CDC and with ATSDR. We are working with the Department 
of Defense very closely on identifying contaminants. We are looking at 
new technologies.
    Particularly since the anthrax incident, we have, I think, 
about 35 different technologies that have been proposed to us 
as being able to decontaminate anthrax very quickly. We are 
trying to move them forward in an expeditious way, but we have 
got to make sure they actually do what they say they are going 
to do.
    So we are trying to ensure that we have a variety of 
options available and we continue to ensure that we coordinate 
with Homeland Security. In addition, we will work very closely 
with the others who are involved in the same kinds of 
activities. The Department of Defense and we have set up--we 
actually have a task force with them.
    Mr. Frelinghuysen. It comes down sort of to a very basic 
level. The first responders on the scene often are local 
folks--EMT, police and fire--and they would be involved in 
seeing the people are brought to emergency rooms. I just want 
to get a greater feeling that you are involved in link to 
emergency rooms, CDC, departments of health--all the necessary 
agencies are talking to one another which sort of brings up the 
whole issue of whether information systems do talk to one 
another and how well safeguarded they are.
    Ms. Whitman. That is a different issue and we are working 
on that one as well, again under the auspices of Homeland 
Security. We are working to develop, for instance, for water 
systems and chemical companies, secure networked sites for each 
industry where they can share security information and not have 
to worry about other people coming in. We have done a lot of 
revision and a lot of analysis of our own EPA Internet site, 
including reviewing the information that we already have up to 
see what we have and how we can protect what needs to be 
protected, and yet ensure that the local responders have 
everything they need to be able to respond appropriately to 
terrorist actions. We are working very closely with State 
governments, with local governments, and in fact, as far as 
water security is concerned, we have been in touch with local 
police forces across the country to help them be aware of 
vulnerabilities at water systems.

                        COMPUTER SYSTEM ATTACKS

    Mr. Frelinghuysen. Have you had people attack your system? 
Have you had attacks on your overall computer system and----
    Ms. Whitman. Not that I know of.
    Mr. Frelinghuysen. And have you actually used, like, some 
departments--DOE came in to see us and they often employ people 
whose direct work is to see if they can undermine the sanctity 
and security of systems. I assume that this is the sort of 
thing that you are looking at as well.
    Ms. Whitman. We haven't had, that I know of, an 
unauthorized intrusion into the Agency's network since we have 
been working on the security system. That is certainly 
something we take into consideration, and when we work with 
others to enhance the security of our system, we put it to the 
test as well.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Rodney. Mr. Fattah.

                  CHILDREN'S HEALTH: LEAD-BASED PAINT

    Mr. Fattah. Thank you, Mr. Chairman. Governor, it is good 
to see you again. In the mid Atlantic region, in Pennsylvania 
specifically, you have done a number of grants related to the 
eradication of lead-based paint, and I was wondering how 
involved the EPA is in this issue nationwide, how big a problem 
do we still have of children growing up and living in housing 
in which there is lead-based paint and I am just trying to get 
a sense of the scope of the problem versus the level of your 
response and whether HHS is involved also or is this a purely 
EPA issue?
    Ms. Whitman. Oh, no. It is a much bigger issue. I believe 
it is a million children who still suffer from----
    Mr. Johnson. Yes.
    Ms. Whitman. Yes. A million children still suffer from lead 
poisoning. One million is a number that we feel is totally 
unacceptable, because it is a preventable problem. We just 
announced a joint settlement with Housing and Urban Development 
with one of their contractors that will--they will go back----
    Mr. Fattah. A very large sum.
    Ms. Whitman. Yes. That is 320,000 units, I believe, that 
are going to be remediated to get the lead out. We need to 
expand that. We are looking very actively at other ways in 
partnerships in which we can enter. We work closely with the 
Department of Health and Human Services, and this is a major 
issue. In fact, I just met with one of our scientific advisory 
committees and asked them to focus on lead as a challenge. It 
is something that I believe we should be able to eliminate as a 
threat to our children.
    Mr. Fattah. Governor, you know that we have known a lot 
about this for a very long time.
    Ms. Whitman. Yes.
    Mr. Fattah. It will be helpful to me if you could provide 
the committee with some information about the scope of the 
problem, not just the number of children. I heard you say a 
million, but the number of what we perceive to be housing 
units, and if that is the case, are there other facilities in 
which children are in schools, other places where there still 
may be lead contamination, and if anyone could give a sense of 
what it would cost to once and for all resolve this problem, 
because as we know, it interferes with the educational levels 
attainment of these children, and the President has said he 
does not want to leave any children behind, and it is 
impossible not to leave children behind if they are going to be 
contaminated by lead-based paint.
    And so I know of your interest in this. It will be helpful 
for me to get a sense of--since it is something we could 
actually concur if we were determined to do so, if we could get 
a sense of what it would take to do it.
    Ms. Whitman. We could certainly do that for the record, but 
Steve could add to the conversation right now, Steve Johnson, 
who is the Assistant Administrator for the Office of 
Prevention, Pesticides and Toxic Substances.
    Mr. Fattah. Thank you.
    Mr. Johnson. Thank you, Governor. The issue of lead-based 
paint is a serious issue facing the United States and as 
Governor Whitman said that we do still estimate close to a 
million children with blood lead levels over an acceptable 
level, the good news is that some recent survey work done by 
CDC actually shows that the numbers of children are coming 
down. So that is very good news.
    As far as the number of houses, there are pre-1978 
homeswhere typically lead-based paint was used, and our estimates are 
that there are about 15 million housing units across the United States. 
Each year there is a variety of things that are done to those homes, 
renovation, remodeling, and those activities lead us to much greater 
numbers by several orders of magnitude.
    So we are looking at not only the total number of housing 
units, but also we have got some fairly good estimates working 
with HUD on the number of renovations and remodeling that go 
on, and that is clearly an issue that we are trying to work our 
way through.
    Mr. Fattah. In terms of abatement, is there an estimate of 
what it would take to clear the contamination in these----
    Mr. Johnson. I don't have that figure off the top of my 
head. I would be happy to provide that for the record.
    Mr. Fattah. If the EPA could provide that for the record.
    Ms. Whitman. We would be happy to provide that for the 
record.
    [The information follows:]

                           Lead-Based Problem

    The primary federal clean up role is with HUD. The USGS has 
determined that 96.4% of all lead paint used in this country 
was used before 1960, so that is the focus of some recent HUD 
estimates. In February 2000 HUD estimated that it would cost 
$20.7 billion to identify and abate all lead hazards in the 2.3 
million pre-1960 housing units occupied by low income families 
not covered by HUD's Lead Paint Regulation. We would consider 
these units to be the most high risk housing units. 
Alternatively, HUD estimated that it would cost $2.3 billion to 
conduct more limited lead hazard reduction or interim control 
activities in the same 2.3 million high risk pre-1960 housing 
units. Note that because these interim control activities do 
not remove all lead paint, they require periodic inspection and 
maintenance to ensure that no new lead hazards emerge. To clear 
up all lead hazards in every housing unit they estimated it 
would cost $166 billion.
    EPA's role in addressing the lead-based problem include 
clean up standards based on the overall risk of exposure, 
creating a national/state/tribal regulatory framework for 
certification and training of lead-based paint abatement 
professionals, and outreach to people who might be at risk of 
exposure to lead-based paint.

                      WATERSHED GRANTS INITIATIVE

    Mr. Fattah. This is not one of those problems that we 
haven't figured out how to deal with, it is a problem where we 
haven't generated in terms of the resources to actually do 
something about, because we know how to solve this problem. It 
is not rocket science. So I would appreciate that, if you could 
provide it.
    Can I ask one other quick question about watershed issues. 
I note that your budget request requests $21 million for 
assessment purposes. In our region there has been a lot of 
assessment already. I was wondering for areas in which 
assessment is no longer a need, would those dollars be 
available for other purposes?
    Ms. Whitman. The $21 million to which you refer is to 
identify 20 watersheds throughout the Nation that are 
threatened watersheds, and to provide some dollars to the 
States and the local entities to do planning for mitigation. It 
is separate and is on top of the Section 319 money and other 
moneys that go for nonpoint source pollution that the States 
use currently for watershed management. So for those areas that 
perhaps might not be one of the 20, there are still other 
dollars available to move them from the planning process into 
implementation. What we are trying to do is start to see how we 
leverage the other dollars that we have out there in watershed 
management, and if we cannot also develop some models for 
others to look at for ways to address watershed degradation 
problems.
    This approach is based on the Charles River in Boston. They 
have a very successful public private partnership with some 
NGOs the city, the State and the Federal Government that has 
resulted in a very dramatic cleanup of the Charles River. So we 
are looking forward to being able to provide that kind of 
example for people, and hopefully we believe to show them ways 
to, in a cost-effective manner, remediate some of these water 
issues. The other funds continue to be there, such as the 319 
funds, the State revolving loan funds, and all of those could 
be used for the projects to which you refer.
    Mr. Fattah. Thank you very much, Governor. Thank you, Mr. 
Chairman.

                          MANAGEMENT SCORECARD

    Mr. Walsh. Thank you. I will begin the next round. We will 
get back to order. I would like to touch on another subject, 
and that is the EPA's management score card. For those on the 
Committee and in the audience who may not know what this is, 
the Office of Management and Budget has determined to score 
every Federal entity in five broad management categories. It is 
noted in your budget submission--which, I should note, are 
illustrated in a stoplight mode, red supposedly being bad, 
green being good--were as follows: Budget and performance 
integration, yellow; e-government yellow; human capital, red; 
competitive scoring, red; and financial performance, red.
    I should mention the EPA's scores were, in fact, pretty 
good compared with most other agencies' score cards.
    On the other side, this whole idea strikes me as terribly 
subjective, and in fact, not particularly helpful in resolving 
real and specific problems. I think there are some agencies 
that scored fairly well that may not be considered well managed 
at least in the Congress. Recognizing that you have to be 
judicious in how you respond, do you believe that the OMB 
exercise is helpful in resolving actual and known problems at 
the agency?
    Ms. Whitman. I do believe it helps focus us, yes. 
Obviously, we would argue we would want to be an all green. As 
you pointed out, two yellows is not bad, considering where some 
of the other departments and agencies are, but we still have 
challenges in the areas that they have outlined. We do still 
have ways to go in some of those areas, but we feel we are 
further along in some and we will just argue it with them. As 
far as an exercise that helps focus on the priorities of the 
administration relative to what Congress wants to see and the 
ability of agencies to report back as well as assure people 
that we are spending their money wisely, it does help.
    Mr. Walsh. I assume this is the management function of OMB 
as opposed to the budget function of OMB?
    Ms. Whitman. Right. This is the management function.
    Mr. Walsh. Who makes this determination, at what level? Do 
you know?
    Ms. Whitman. Signed off at the highest levels.
    Mr. Walsh. Signed off, but do they make this analysis?
    Ms. Whitman. I suspect it gets done further down the line. 
Who did you have conversations with? Because I know we did 
argue that our side was a little better on a couple ofthings 
than we had before.
    Mr. Walsh. If you would identify yourself for the record, 
please.
    Mr. Ryan. Mr. Chairman I am Michael Ryan, Deputy Chief 
Financial Officer. We spoke with a variety of people at the 
staff up and down at OMB and----
    Mr. Walsh. People who all had extensive management 
experience?
    Mr. Ryan. They are in the Office of Management and Budget.
    Mr. Walsh. Had any of them ever managed anything?
    Mr. Ryan. I am sure that is true. But we spoke to a variety 
of them, and they arrived at a consensus that was worked up to 
the highest levels and signed off.
    Mr. Walsh. Do you agree with the administrator that that 
analysis was objective and helpful?
    Mr. Ryan. Mr. Chairman, I always agree with the 
administrator. And this is no exception.
    Mr. Walsh. And I suspect that the director of Management 
and Budget also agrees with the staff, and vice versa, on these 
recommendations.
    Mr. Ryan. Not to be facetious, it was objective--there was 
a debate among us. Some of us think, of course, we should score 
even better, but I think they were objective. They set out 
criteria, and they did by their best and we actually have been 
making progress ever since it came out. It has focused, as the 
administrator said, our attention on these issues, and you can 
believe that we are spending a lot of time worrying about these 
five issues.
    Mr. Walsh. So they did give you an opportunity to address 
the proposed score card and effect changes before it was 
published in your budget documents?
    Mr. Ryan. Yes, sir, ample.
    Mr. Walsh. This is a question of the Inspector General, if 
she would care to comment on the score card. If you would, 
please, feel free to comment on whether or not you were given 
an opportunity to comment and effect changes within the score 
card. You don't need to come forward if you just identify 
yourself.
    Ms. Whitman. Nikki Tinsley, Inspector General.
    Ms. Tinsley. We did have discussion with the OMB on the e-
government score. On the others, we did not have a discussion.
    Mr. Walsh. Would this score card be a potential problem 
wherein certain OMB-identified concerns are assigned a higher 
priority than they otherwise should or would be by EPA?
    Ms. Tinsley. Ask me that question again.
    Mr. Walsh. Would you be concerned that their priorities are 
different than EPA's?
    Ms. Tinsley. The priorities that are identified in the 
score card are very consistent with the management challenges 
that we have identified over the last several years for EPA. 
They are also consistent with management challenges that other 
inspectors general across government have identified as 
important to their agency. In many instances, these challenges, 
if they are addressed by the agency will provide a good 
framework for the agency to better manage its operations and to 
better inform the public about the results of operations, so--
--
    Mr. Walsh. Do you see this as sort of a venture into your 
role? Is OMB usurping your role as Inspector General in terms 
of the management responsibilities of the agency?
    Ms. Tinsley. No. I think all levels of government, no 
matter which part you are in, have a responsibility to make the 
government operate efficiently and effectively----
    Mr. Walsh. And that is not your responsibility?
    Ms. Tinsley. Ours is an oversight responsibility to report 
how that is working, but it is management's responsibility to 
make sure that programs work and that there is good financial 
information and good performance information.
    Mr. Walsh. Thank you. Any other comments on the score card?
    Ms. Whitman. No. I would say this is the one that the 
President feels very strongly about. The ultimate report card 
did come up and was signed off on at the highest levels. It 
represents his commitment to ensuring that we work as 
efficiently and effectively as we can. Again, we did have an 
opportunity to push back a little bit to point out where we had 
made progress during the time that they had started this 
process to when they came out with the report card and 
vigorously defend ourselves where we thought we had been 
unjustly relegated to red. We have made a lot of progress 
since, but it certainly has been helpful in focusing the agency 
on these challenges.

                        LAKE COOLING TECHNOLOGY

    Mr. Walsh. I don't know whether I have asked you about 
this. It is another technology that I have come across. I am 
not sure whether I asked about it last year, and you may or may 
not have someone who is familiar with to comment on it, but I 
would appreciate if you could give me some sort of response in 
writing, if you can't do it verbally, and that is, this issue 
of lake cooling.
    Cornell University recently employed it, and the Finger 
Lakes are very deep lakes holding lots of cold water, and the 
technology draws water from the hypolimnion, which is the 
bottom of the lake, and it is drawn up and it is run through a 
system of pipes, and they use it to chill air and then they put 
it back into the lake, and I guess the issue is the temperature 
as it reenters the lake and how it affects the ecosystems. Is 
there anyone at EPA that has looked at this technology? I am 
sure someone has, but they may not be here.
    Ms. Whitman. Jeff?
    Mr. Holmstead. No.
    Ms. Whitman. No one has looked at that particular 
technology, although we certainly have looked at and are 
concerned about the impact of activities along lake fronts and 
rivers, on the temperature of the river and the impact upon the 
ecosystems. We can certainly have someone sit down with your 
staff and find out a little bit more about this----
    Mr. Walsh. I think if it proves out in Ithaca, for Cornell, 
and I believe there are one or two Canadian cities that are 
looking at this technology, it really has dramatic application 
in the Great Lakes area where you can get to deep water within 
a mile or two offshore; and I know Rochester, New York has 
looked at it and believe it or not, my hometown, which is 
probably 40 miles from the lake, could conceivably utilize that 
technology too.
    But it would be interesting to see what EPA's take was on 
the technology in the event that it became a broadly-used 
energy source or energy derivative.
    Ms. Whitman. Certainly. We will get someone to get the 
information on it and then get in touch with Cornell.
    [The information follow:]

                        Lake Cooling Technology

    EPA has conducted a review to evaluate the potential 
effects of this project on Cayuga Lake. A letter dated October 
5, 1999 (sent as a mass mailing) describing the results of the 
Agency's review is attached. Briefly, one concern that EPA has 
relates to the system's expected discharge of phosphorus, since 
Cayuga Lake is listed as an impaired water body for nutrient 
enrichment. The system would withdraw deep cold water from the 
Lake for cooling purposes and would discharge to the shallow 
southern portion of the Lake. This discharge, at its maximum 
permitted flow, will result in a 3 to 7 percent increase in 
total phosphorus loading per month to the top layer of the lake 
during those months when the lake is stratified. This is a 
transfer of phosphorus to the lake. However, there is concern 
regarding the potential for algal blooms due to this phosphorus 
transfer. The evaluation concluded that EPA does not believe 
the plant will result in significant or discernible increased 
algal growth.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Walsh. Thank you.
    Mr. Mollohan.

         CLEAR SKIES INITIATIVE: EMISSIONS STANDARDS TECHNOLOGY

    Mr. Mollohan. Thank you, Mr. Chairman. Governor, there have 
been a couple of questions asked about the Clear Skies 
Initiative, and I must say, I am not completely unhappy with 
the idea of coming forward with a scheme that defines the 
standard, but doesn't set the technology by which that standard 
must be achieved, which I understand this leans toward. And the 
President, through this initiative, would encourage utility 
sources to find the most innovative ways to achieve reduced 
emissions, as the plan will outline, without dictating what 
kind of technology is to be used to achieve the emission 
standards.
    However attractive that approach might be in my area, this 
budget for the Department of Energy reduces the spending on 
Fossil Energy Research and Development by 16 percent and 
reduces the Fossil Energy Coal Program by 7 percent. Those 
accounts are where the critical research involving Department 
of Energy and utilities is performed to create the systems to 
come forward with the innovative technology in order to achieve 
compliance with any standard. It just prompts me to ask why 
would we put a plan in place that requires utilities to reduce 
emissions through innovative technology and at the same time 
dramatically cut the very programs that are helping, in 
partnership with private industry, to create innovative 
technology.
    Ms. Whitman. Well, Congressman, obviously I can't speak to 
the specifics of the DOE budget. I will say that under the 
Clear Skies Initiative, our budget, what the President has 
proposed when he talked about our commitment to greenhouse gas 
reduction of intensity by 18 percent, and the energy report, 
there is a great emphasis on different ways of spurring 
technology through tax credits and other initiatives. With 
Clear Skies, we are looking at mandatory caps on emissions 
recognizing that there already are about five regulatory 
programs that are either in effect now or coming into effect, 
everything from the NO<INF>X</INF>-SIP call to the BART Rule, 
to the MACT Standard, and others. All of which will require 
that utilities make changes and find ways to reduce these 
emissions. The premise of the Clear Skies is that by setting 
those standards all at once at one time, they know exactly what 
they are going to have to get to on everything, and they can 
begin work now. In fact, there is a lot of research they have 
already done, and it becomes in the long term in their 
financial interest to increase some of the spending that they 
do on research and development. It does not become the 
responsibility of the government to have to supplement or 
support the research and development they are doing, so I 
presume that is part of the reason.
    Mr. Mollohan. On that point, I would invite you to look at 
that connectivity between what you are doing here on the 
enforcement side, on the standards setting side, and what DOE 
is doing on the research side. I do think they are very, very 
complementary, and I know you are extremely sensitive to that, 
but I encourage you to look more carefully at what they are 
doing on the research side.
    Ms. Whitman. And we are doing quite a bit on research as 
well.
    Mr. Mollohan. Yes. And there have been hundreds of millions 
of dollars spent on this, and there is some very exciting stuff 
on the horizon that could be very complementary to this 
philosophical approach to emission standards. I encourage you 
to look at that.
    Ms. Whitman. Certainly.

    NATIONAL ENERGY POLICY: NEW SOURCE REVIEW AND ENFORCEMENT ACTION

    Mr. Mollohan. The President's national energy policy was 
released May 17, 2001, and he directed the EPA and the Justice 
Department to review the impact on utilities and refineries of 
the Clean Air Act's New Source Review requirements and the 
recent enforcement actions taken. Where are you in this 
process?
    Ms. Whitman. We are close to completion of the 90-day 
review that we were asked to do of New Source Review. As I 
indicated earlier, we are doing a very comprehensive review. It 
is a very contentious and complicated issue and we are very 
close to completion of that initial review. Then there are two 
different parts of New Source Review reform that have been 
proposed. One is based on a set of regulations proposed by the 
previous administration that actually went out in regulation 
for comment where they solicited comment.
    We have had comment and input since 1996. The other set is 
a number of recommendations that were made that go beyond what 
was proposed in 1996 and would vastly streamline New Source 
Review. However, those have not gone out in a proposed 
rulemaking, they haven't been subject to public comment. We 
would have to do that. That is about a 3-year process, and that 
is one of the reasons why we would be so anxious to get the 
Clear Skies proposal through. With the numbers that the 
President laid out under Clear Skies, we would get better 
reductions faster and less expensively than we will get under 
the current Clean Air Act, and therefore it would make it 
redundant.

              CLEAR SKIES INITIATIVE VS. NEW SOURCE REVIEW

    Mr. Mollohan. What is the relationship between Clear Skies 
Initiative and the New Source Review?
    Ms. Whitman. There actually isn't any. They are totally 
separate. The Clear Skies proposal has been outlined by the 
President, and at the end of the day, what is going to be 
important where that ends up. If it were to be enacted, given 
the President's numbers, then New Source Review, as it applies 
to utilities, would be redundant, and we would no longer need 
to have it because we would be getting less emissions under the 
Clear Skies than we would get under the New Source Review.
    It all depends on where the legislation ultimately ends up. 
But they are totally separate. The review that we are doing of 
New Source Review and the potential for a proposal on the 1996 
rules, are separate and we haven't taken any action on those 
yet. There has been nothing finalized.
    Mr. Mollohan. Do you plan on releasing your review of the 
New Source Review?
    Ms. Whitman. The review of the review? At some point, yes. 
When we finally get through the process.
    Mr. Mollohan. Do you have any idea when that might be?
    Ms. Whitman. I keep saying soon, and soon becomes longer 
and longer, but in Washington, I am finding that is sort of the 
way it happens.
    Mr. Mollohan. It is a complicated issue.
    Ms. Whitman. It is. We are working amongst departments too, 
as it impacts a lot more than just EPA.

                      ENFORCEMENT: FTE REDUCTIONS

    Mr. Mollohan. Staffing, I think we have touched on that a 
little bit, but again, if I might circle back around because I 
want to understand how your recommendations for FTE reductions 
are going to impact enforcement and theState's role and 
capability of performing enforcement. There is some angst out there in 
the country on this. You made a similar request last year: It wasn't 
approved. Your proposed cut for 2003 is about half of last year's 
proposal, but it is still a reduction of 95 FTEs, which I consider to 
be significant. What can you tell us about the justification for 
cutting staffing at your enforcement office?
    Ms. Whitman. Congressmen, we won't be cutting actual 
bodies. We, in fact, anticipate hiring 100 new people starting 
now. We are in an active effort to recruit.
    Mr. Mollohan. Is that because you have a lot of current 
vacancies?
    Ms. Whitman. Yes. That is part of it. At the end of the 
year, we average a turnback of about 120 what I call funded 
vacancies, that the program carries. It is just the nature of 
the program----
    Mr. Mollohan. Are you talking about in the enforcement 
area?
    Ms. Whitman. In the enforcement area. About one fifth of 
our personnel is in the Office of Enforcement and Compliance 
Assurance. The cuts that are being referred to are really in 
that number of funded vacancies. We don't anticipate any 
layoffs of current staff or any reassignment of current staff. 
Basically our proposal would lower the ceiling up to which we 
could go, but a number of positions within the ceiling are not 
filled.
    Mr. Mollohan. So you are proposing having 17,648 FTEs. You 
are saying enforcement represents about----
    Ms. Whitman. Our Enforcement and Compliance Assurance 
Office represents one fifth.
    Mr. Mollohan [continuing]. One fifth of that number and of 
that one fifth, you are proposing eliminating 95 FTEs, for 
which there are vacancies existing at the present time?
    Ms. Whitman. Yes. I believe the reduction can be achieved 
through normal attrition, without the reassignment of existing 
enforcement staff, and without a hiring freeze.
    Mr. Mollohan. I guess I have to ask why we have vacancies 
in the enforcement area at this time?
    Ms. Whitman. Well, Congress gave us money for fiscal year 
2002 to hire up and we are hiring up, but not to the full 
amount that it was anticipated as far as the number of bodies. 
That had to do with the expense of staff costing us more now. 
They are getting more sophisticated, benefits and things. 
Salaries are more expensive; so we don't get as many for the 
same amount that we had before.
    But again, what I go back to is the performance, and the 
performance has been very good. We have been able to see a very 
vigorous enforcement program that has been very successful over 
the last year. We anticipate having the same number of people 
to do the job. What we also have proposed, as you indicated, is 
$15 million to States. States do 90 percent of the compliance 
and inspections now. That is where we believe we can leverage 
the enforcement that we have.
    So by giving the States the $15 million that we are talking 
about here, particularly now when so many of them are facing 
tight budget times, we can help ensure that they continue to 
the job that they are already doing and which they do very well 
and help us with that. They are on the ground. They know where 
the bad actors are. They know where to look. We need to help 
and enhance that effort while we continue to focus on the 
things that are the responsibility of the agency.

                   ENFORCEMENT GRANT PROGRAM PROPOSAL

    Mr. Mollohan. I can tell you there is some real concern out 
there, at least in my State. $15 million spread among all 
States is not going to be adequate. It is a competitive grant 
program, isn't it?
    Ms. Whitman. Yes, the majority of the program will be 
competitive.
    Mr. Mollohan. There are going to be a lot of States that 
don't participate in that $15 million at all, I have got to 
believe. Do you have any estimate of how many States will be 
participating in this program.
    Ms. Whitman. Not that I know of.
    We don't have an estimate, do we?
    No.

                     TARGETED WATERSHED INITIATIVE

    Mr. Mollohan. Well, I just want to renew my earlier concern 
expressed about that. I know last year the Congress did not 
approve it.
    Let me touch on watersheds a moment, Governor. You have 
testified a bit and some questions have been asked about your 
New Initiative to fund the $21 million to deal with watershed 
health throughout the United States. Could you elaborate on how 
is this program going to work in practical terms? I have a 
chart here that indicates that its proposed implementation 
schedule is to start in the spring of 2002. At that time you 
will be announcing the Initiative, sending letters to 
governors, etc.
    Ms. Whitman. What we are doing is reaching out to governors 
to help us put the plan together as the best way to meet their 
needs. We are working in a very aggressive partnership mode 
with the States. We anticipate putting a letter out to the 
States, asking them for their ideas and input as to how best to 
frame the program so that we can actually target the watershed 
areas that we want to reach. As I indicated before, this is an 
effort to leverage the moneys that we are already spending 
through different programs on watersheds and start to provide 
States with some examples to follow.
    Mr. Mollohan. I think this is an exciting initiative if it 
plays out the way I imagine it could, for our area certainly. 
Is there an inland watershed focus to this? I know we have a 
lot of coastal programs and estuary programs.
    Ms. Whitman. It certainly isn't relegated to inland waters 
exclusively, but they would certainly be considered as part of 
it. Really, when you talk about watersheds, you start inland 
and work out. Now, we have to work with the States to see how 
we deal with the coastal plains and the coastal areas and 
estuaries versus the full watershed. If you look at some of 
them they encompass a number of States. The exciting thing here 
is the ability to maximize the money we are already spending, 
the research that we have done, and to see impact that goes far 
beyond one particular area stream or watershed.
    Mr. Mollohan. I have a couple other questions to follow up, 
but I know my time is up right now. Thank you, Governor.
    Mr. Walsh. Mr. Knollenberg.
    Mr. Knollenberg. One quick question, Governor, with 
reference to Mr.--the gentleman from West Virginia, Alan, which 
watersheds are you targeting?
    Ms. Whitman. We haven't drawn----
    Mr. Knollenberg. You are going to get to that, to the 
prioritizing----
    Ms. Whitman. Yes. We haven't pre-identified them.

               COOK NUCLEAR PLANT: FOSSIL FUEL GENERATION

    Mr. Knollenberg. I want to go back to this question to Mr. 
Holmstead referenced in the last conversation I had. It has to 
do with the Cook Nuclear Plant. The reason we think that--and 
you might want to come forward and respond to this.
    Ms. Whitman. So we can give you another robust answer.
    Mr. Knollenberg. I need a robust answer, more robust than 
the last one.
    Let me just explain. This Cook nuclear plant that you 
referenced, I didn't bring it up, but you did, the Michigan 
view on this is contrary, as you probably know, to what you 
just stated. You stated that because the Cook Nuclear Plant 
came back online, that the higher levels in 1998 and 1999 
reflect increased fossil generation. That is what you are 
saying.
    Mr. Holmstead. No. I don't think I explained myself very 
well.
    Mr. Knollenberg. To make up for Cook being off-line, that 
is what you said.
    Mr. Holmstead. What I tried to say, and I may not have 
explained myself very well, is that when the nuclear plant went 
off-line, we saw an increase in the use of fossil fuels in 
Michigan, not surprisingly. If you take that increase out over 
a 7-year period, you would predict a very significant increase 
in the use of fossil fuel.
    Mr. Knollenberg. Let me interrupt you, because here is the 
difference. Cook is a part of the AEP system. It is dispatched 
by AEP, and the vast majority of its generation doesn't even go 
into Michigan. It goes out of the State because it is a part of 
a broader group. I can understand where you might make that 
assumption that it would stay within the State, but this says, 
no, that it was outside the State. It would only make a small 
difference in terms of the actual fossil fuel generation.
    Mr. Holmstead. No, but I believe the plant is located in 
the State of Michigan.
    Mr. Knollenberg. It is, yes.
    Mr. Holmstead. And the way the program works is that----
    Mr. Knollenberg. Which program?
    Mr. Holmstead. The NO<INF>X</INF> SIP Call or the section 
126 rule, either one. The allowances are allocated on a State-
by-State basis.
    Now, I don't know----
    Mr. Knollenberg. The basis of the generation of the power 
within that State.
    Mr. Holmstead. Regardless of where it----
    Mr. Knollenberg. That doesn't make any difference?
    Mr. Holmstead. I mean, I don't know enough about the AEP 
system to know where all the plants are located.
    Mr. Knollenberg. It is conceivable that most of the power 
generation could be in Michigan, which would produce a flawed 
assumption on the part of these growth assumptions that you are 
making. I am just stating that that is one of the things we 
have difficulty with, because we are being told that it is for 
this reason.
    Very honestly, I think if you analyze it or look at it 
carefully you will find that it is a little different than what 
you might presume, because that power generation didn't go into 
the State of Michigan. It went outside, and the difference in 
percentage of growth factor is anywhere between 13 and 31 
percent. EPA says 13 percent. We are saying 31 percent. I think 
something----
    Mr. Holmstead. No. And I agree absolutely. I sense from 
your questions that you are not entirely satisfied with the 
situation.
    Mr. Knollenberg. I am not.
    Mr. Holmstead. And----
    Mr. Knollenberg. In fact, let me just say this. In your 
letter, your response or your action, your coming up on the 
Hill by the end of March, we expect to have an answer.
    Mr. Holmstead. What I can commit to with the support of 
Governor Whitman is that I will make sure that we get to the 
bottom of all of these issues and that we come up to talk with 
you.

          COMBINED SEWER OVERFLOWS (CSO): FARMINGTON DISTRICT

    Mr. Knollenberg. I think we should. I would appreciate 
that.
    Governor, getting back to the item I brought up the last 
time around, concerning a city in my district, where I 
mentioned the high technology, the liner that is being used to 
reduce costs greatly. It is called the cured-in-place method of 
pipe repair. I have been told that it can double the life of 
the current pipe at only one-third of the cost of replacing the 
pipe. I have no idea about projecting the longevity of any of 
these things, but apparently it has been accepted certainly in 
some countries. I don't know how much it has been accepted 
here, but we have one of those in my district, so we are kind 
of anxious to see how it works out. I have been assured this 
method is going to work out very well.
    You know as well as I do that the cost that is being 
estimated for these CSOs and SSOs is just horrendous. There is 
no way we can do it, and we can't expect by mandates to make 
the cities and the towns do it.
    But what I am wondering is--will the EPA provide 
flexibility of some kind so that States can at least deal with 
the problem for less costs?
    In my own county again, there is a program.
    Where they are expecting the cost to be something like $180 
million. They are working on an alternative which may or may 
not have EPA's acceptance that would cost around $20 million, 
as opposed to $180 million. They are talking about using 
existing CSO infrastructure for SSO discharges instead of the 
retention basin that would cost $180 million, the city claims 
they can do this forsomething like 10 cents on the dollar and 
still bring about a completion.
    The point is, though, does it meet with EPA specs? I don't 
know. Does it meet with the specs of the various States? But it 
is something that is being looked at seriously, because people, 
certainly in Michigan and around the country, know that they 
can't come up with these monies. The mandates are too 
excessive, too high.
    So I guess, what do you need from Congress, if anything, to 
help you in working with cost-effective alternatives on these 
various problems around the country. That is worth talking 
about, I think.
    Ms. Whitman. Oh, absolutely, and we do have some ability to 
provide flexibility in meeting standards. It may be, though, as 
we get into the discussion on these particular water issues 
that we might need to come back to Congress.
    First of all, we should be talking with Congress as we go 
through this, because it is going to require more than just one 
entity of government or the private sector to meet these 
challenges. I don't know that we won't perhaps require some 
more flexibility from Congress in order to be able to maximize 
the technology that is out there, but I can't say at this 
point.
    There are a lot of exciting technologies throughout, and 
actually what you are referring to on that sleeve in the pipes 
is something I have heard of being used in Newark. They 
apparently are using that for infrastructure, which is very old 
and costs just an enormous amount of money in a community that 
can hardly afford it.
    That is the sense of the issue that we face: these costs 
are just enormous. They cannot be borne by any one entity 
alone, whether it is a municipal government, State government, 
Federal Government or the private utility. So we need to be as 
flexible as we can and understand that, whatever the technology 
is, we have to make sure it works.
    It is not up to us. I would like to get EPA out of the 
business of designating a single type of technology. What we 
should do is say, here are the standards that have to be met, 
and then we do have a responsibility to judge each of the new 
technologies that come forward to make sure they do what they 
say they are going to do. Then we can say, yes, this is 
something you can use or, no, it is not going to do the job 
they claim it is going to do.
    But, beyond that, we should not mandate you have to use 
this technology, you have to use that one. That to me does not 
make sense, and we recognize that not all wisdom rests with us.
    Mr. Knollenberg. I am glad to hear you say that, because I 
do think it calls for a greater cooperative effort to 
collaborate and then cooperate in a way that we can architect 
some alternatives that are just as effective and costs far, far 
less. So, thank you.
    Mr. Walsh. Mr. Fattah.

                         ENVIRONMENTAL JUSTICE

    Mr. Fattah. Thank you, Mr. Chairman.
    Governor, let me ask you about some environmental justice 
issues related to, you know, toxic waste cleanup, Brownfields. 
Your department has--you verified that a disproportionate share 
of these sites in many instances are in communities that are 
heavily populated by African Americans, Latinos, Native 
Americans; and I noted you have been making some efforts in 
this regard. I want to give you a chance to expound on what is 
being done and what--to what degree that we can be helpful, you 
could utilize the--in responding more to these issues.
    Ms. Whitman. Well, environmental justice is of great 
concern to us. As you know, there were a number of outstanding 
title VII issues that we faced. We have been able to reduce 
that backlog by about 90 percent. As we look at projects, we 
have to take into consideration, and we do take into 
consideration, the environmental justice impact of individual 
projects. We had a bit of a discussion this morning about 
Brownfields, and----
    Mr. Fattah. I don't want you to be repetitive.
    Ms. Whitman. No, no, no. From your point of view, what I 
think is very important in the Brownfields legislation that you 
all gave the country is not so much the dollars, although the 
President is requesting a doubling of the Brownfields program 
to $200 million, but what is most important is the liability 
protection. That to me is going to provide the greatest 
stimulus for the redevelopment of these sites, and what we are 
doing now is working with the States and working with the 
communities to help them identify Brownfields sites, to help.
    I entered into a memorandum of understanding with Habitat 
for Humanity to identify Brownfields sites that were 
appropriate for low and moderate income, subsidized housing. We 
have entered into an agreement with the U.S. Soccer Foundation 
for those Brownfields sites that could provide soccer fields 
and recreational outlets. There are a number of different uses, 
and not only will the reclamation of a Brownfields site help 
reduce environmental pollution, it will also help increase the 
health of the community, economically, environmentally and 
physically.
    One thing that we have seen from Brownfields is, for every 
dollar that the Federal Government invests in a Brownfields 
site, we leverage $2.50. For every acre of Brownfields that is 
redeveloped, we save four acres of green space.
    We are looking forward to and are excited by the 
opportunity and the challenge of the new program, but, as I 
said, it is not going to be just what the Federal Government 
spends that is going to make the difference. It is also going 
to be this liability protection, which really is going to free 
the private sector to become more actively involved in doing 
Brownfields reclamation. While Brownfields do occur all across 
the country and not just in urban areas, the preponderance of 
them are in urban and low-income areas. So we are looking 
forward to seeing some very good projects take place.

                           STATE PERFORMANCE

    Mr. Fattah. Thank you, Governor.
    Let me ask you, the report card that the Chairman referred 
to, does OMB have a score? Do they get reported on?
    Ms. Whitman. I don't know if they report on themselves.
    Yes, they do. Okay. They do. Fair enough.
    Mr. Fattah. But speaking of report cards, since 50 percent 
of the dollars driven to EPA, you drive to States--and I would 
assume there will be some political sensitivity, but I am just 
talking as a general matter. I assume there are some States 
that are more aggressive, moreefficient, more effective than 
other States, and I would like to know how is it that you go about, I 
assume through some process of carrot and stick, to encourage those 
that need encouragement, and is there anything in your budget request 
that is related or sensitive to those kinds of issues?
    Ms. Whitman. Actually, all our programs in which we work 
with the States reflect the individual State's commitment and 
the sophistication that they have in the environmental area. 
Most of our programs are competitive. There are some where we 
do realize that we need to put more emphasis. We mentioned a 
little earlier on the enforcement side of it, there are some 
States that do a very good job and some States that don't do a 
very good job. For those that aren't as geared up to do 
enforcement, we anticipate maintaining our presence there.
    The dollars that we are talking about giving to the States 
is more to enhance those that, for instance, may have a very 
good water program but they don't have much in the way of air 
inspections. If we could give them some money, they could bring 
themselves up to that level, the same level in air as they are 
in water. We are very sensitive to the fact that there is an 
enormous difference, and where there are problems we work with 
both carrot and stick with the States to try to get them into 
compliance and to ensure that they are putting appropriate 
attention to the environmental needs.

                             CLIMATE CHANGE

    Mr. Fattah. Lastly, I think you referred to it as climate 
change, that general terminology, global warming. You know, 
this is the warmest winter on record, and we have some drought 
issues in both your home State of New Jersey and in 
Pennsylvania and throughout, which is probably going to lead to 
a whole range of other issues going forward. I know that you 
are the administration's point person on this issue and how we 
are going to both cooperate internationally and what we plan to 
do domestically, and you may have spoken about this already, 
but I would like to--if you want to give some remarks on it, I 
would like to hear it.
    Ms. Whitman. Certainly. The reason I say global climate 
change is because in some areas of the globe we are seeing it 
getting colder. Some of the ice packs are increasing. Other 
parts of the globe we are seeing a warmer trend. So it is not 
uniform around the world. That is why we say global climate 
change rather than warming for accuracy's sake.
    The President's proposal would reduce the level of 
greenhouse gas intensity by 18 percent over the next 10 years. 
It provides a cut point to review where we are, to see what we 
are achieving and if there is a need to have a more vigorous 
market-based approach to decide that at that time.
    There is also a great deal of emphasis put on enhanced 
research and development on the science. Because while science 
tells us there is definitely a climate change, our accounting 
science is not as definitive as to what is causing that, 
whether it is all human impact, whether it is part of a natural 
cycle exacerbated by human impact or which of the emissions are 
the most troubling to the environment.
    Black soot, for instance is rarely talked about when people 
today are talking about what impacts climate change. Yet that 
is something that those scientists feel has a very big impact 
on climate change. So the President is calling for a much more 
focused effort on scientific research, not to deny that there 
is global climate change occurring. He believes there is. He 
doesn't think we can wait until we have all the definitive 
signs. That is why he has proposed the 18 percent reduction in 
intensity with an ability, should a science review justify it, 
to stop greenhouse gas emissions entirely and then to start to 
reduce. I mean, that ultimately would be where we would like to 
go, if the science can justify that.
    What is significant about what he proposed is that there is 
baseline protection in there for those companies that choose to 
act early and, to me, that is going to be again one of those 
things that is going to encourage companies to take action. 
They will know that they will have protection against any 
future regulatory change that might demand reductions. Whatever 
they do now will count against that. We are in the process of 
developing that system so that we know that we can provide that 
baseline protection.
    The Department of Energy has been charged with enhancing 
its reporting system. They do maintain a reporting system on 
greenhouse gas emissions. We are working with them to enhance 
reporting that so we have a better baseline understanding of 
exactly what is being proposed. There is an emphasis that the 
President wants to see us put forward on involving developing 
nations. When you limit the developing nations and don't have 
them as part of the process, really, at all, you are missing a 
lot. You are talking about China, which is the second largest 
greenhouse gas emitter, or India, which is in the top 10. And 
the argument, while understandable, that we don't want to do 
anything that would hurt their ability to grow their economies, 
the premise that the only way they can grow their economies is 
by repeating all the mistakes that we made during a period like 
the industrial revolution totally ignores all the advances that 
we have seen in technology.
    What we should be looking at is, how do we provide a 
technology transfer? How do we help developing nations continue 
to grow their economies while being smart about it, using what 
we know now? How can we help them grow without having them 
continuing to hurt the environment?
    To say we should just do nothing until they have reached 
economic parity with the developed nations means that we are 
going to be in a hole so deep, as far as the environment is 
concerned, that we will never be able to remediate it. So the 
point here is to engage now with the developing countries, to 
engage with businesses and technology transfer to make sure 
that, when we call for great expenditures, we are doing it in 
the areas that are really going to make a difference. That is 
how we are proposing to move forward with this climate change 
proposal.
    Mr. Fattah. Well, let me thank you, Governor, and I wish 
you well on that.
    I guess China at this point would prefer to be on that list 
of discussions instead of on the other list that has been 
mentioned.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Frelinghuysen.

                                DROUGHT

    Mr. Frelinghuysen. Thank you.
    The other side of Mr. Fattah's question has to do with 
water supply. Your budget and your emission has everything to 
do with quality water, water protection, watershed protection, 
wetlands protection. Any views as to where weare going in terms 
of the drought? I mean, I know that this largely falls on municipal and 
State, but we are looking at a major crisis. I just wondered if you had 
anything you would like to share for the good of the order.
    Ms. Whitman. Well, as you know, Congressman, the actual 
water quantity falls under the realm of the Interior Department 
rather than under the Environmental Protection Agency. Having 
said that, of course, quantity affects quality. We see the 
intrusion of saltwater up our streams, and as we deplete our 
underground aquifers, as we pollute, we affect the water 
quality. As we drawdown water, that intensifies some of the 
adverse impacts we are seeing. So we do have a very real 
concern; and, as I mentioned earlier, I sincerely believe 
water, both quantity and quality, will be the biggest challenge 
that we face.
    It is hard to affect people's behavior, to get people to 
understand that the little things they do can have an impact. 
We get a pushback all the time, and you see it as we get into 
drought mode. I saw it when I was governor when I had to 
declare a drought emergency. People do not believe that if they 
just wait and run the washing machine when it is full, that 
what they do in their home is actually going to have an impact 
on this huge problem that we have. And it does. It is going to 
take everybody to solve this problem.
    It is not just going to be the water utilities. It is not 
just going to be the States. We are looking constantly--we are 
working with agriculture to work on better ways with farmers so 
that they can use better technologies in irrigation. How do we 
recapture water from run-off? We are looking at what we can do, 
working with business and industry, to reduce the amount of 
water that they use in processing. We are doing a lot to try to 
reduce that dependence.
    But at the end of the day, when you talk about irrigation, 
that gets to be more Agriculture and Interior than it does us. 
We are actively engaged in this, because it does have a throw-
off impact to us.
    Mr. Frelinghuysen. Public education, absolutely essential. 
I do think sort of like the success of teaching children about 
the dangers of smoking in school, if--and I know there are some 
school models out there in terms of water conservation and 
preservation. It is amazing what you can do. We may be hopeless 
as adults, but as children we are educable.
    Ms. Whitman. Yes. We just launched our Web page on the use 
of water.
    Mr. Frelinghuysen. Well, it just so happens, I have a 
question that relates to your Web page.
    Ms. Whitman. On water usage for children?

                LEAKING UNDERGROUND STORAGE TANK (LUST)

    Mr. Frelinghuysen. No. What would be a hearing without a 
little LUST? The underground storage issue, you are 
accelerating that program. You have got I think $75 million 
towards additional cleanup. Any comments in that area?
    Ms. Whitman. We believe there are about 470,000 leaking 
underground storage tanks throughout the country. It is clearly 
an issue of great concern, and that is why we have enhanced 
funding for it. We are working again on technologies, better 
technologies for cleanup. We are trying to work with the local 
communities and States to ensure that they have prioritized the 
sites and that they are working as quickly as possible to deal 
with them.

                        ENVIRONMENTAL TECHNOLOGY

    Mr. Frelinghuysen. Lastly, the issue of technology, we have 
here, as I am sure through your agency, more people coming into 
our offices with new techniques. I know you have a number of 
laboratories. I am not suggesting for a moment that they be 
like Consumer Reports. But I would assume that we don't have 
the ability to act as a clearinghouse, although to some extent 
we become a clearinghouse. Do any of your labs look over some 
of these technologies, some fairly ingenious, to determine 
whether they have some worth?
    Because, you know, with all due respect, the old pump and 
treat might have been good, but, in reality, there is a lot of 
technology out there, and it seems to me that we could be--
without endorsing a product, we could be doing things a lot 
smarter and quicker than we are.
    Ms. Whitman. Absolutely. That is a large part of what the 
labs do and what we do here in Washington. The Ann Arbor Motor 
Vehicle Lab, for instance, looks at new automotive technology 
for reductions of emissions. We are constantly focused on that.
    We have a new initiative that I am undertaking in this 
budget. It is something that I think is very important, which 
is the National Environmental Technology Competition, and it is 
designed to help recognize and reward new and innovative 
technology.
    One of the things that we have found is that so many people 
are working on these areas, and don't always know what the 
other is doing. Sometimes it is duplicative and then other 
times they are starting from scratch when they don't need to. 
So what we are trying to do is help to identify in a more 
effective manner, those low-cost solutions that exist for 
environmental programs and for environmental problems and then 
to stimulate development where the technology gaps exist. We 
are doing that by recognizing those who have new technologies.
    This is going to be a partnership with States and private 
sector representatives and ensuring that we verify and identify 
technologies that are actually working and then call attention 
to them. We are developing criteria for technology evaluation 
so that we have the highest standards available and make sure 
that whatever we identify in fact--offers a real solution to 
the problems. We are trying to get a better understanding 
between EPA and the industrial sector on a number of 
environmental concerns and aligning our future environmental 
requirements with technology performance capabilities.
    We have a lot of standards coming online. We are not always 
sure that the technology exists to meet those standards, and we 
need to be. We need to be assured that, in fact, you can meet 
those standards and in an affordable way. I hope that this 
competition will in fact help us on this.
    Mr. Frelinghuysen. Thank you for your testimony.
    Thank you, Mr. Chairman.
    Mr. Walsh. Mrs. Northup.

    OHIO RIVER BRIDGE PROJECT: DRAFT ENVIRONMENTAL IMPACT STATEMENT

    Mrs. Northup. Thank you. I am sorry I am going back and 
forth. I hope I am not repeating questions that somebody else 
has asked, but I have two committees going on at the same time. 
I haven't learned to be two places at once yet.
    I want to ask you about your participation with the Federal 
Highway Administration on draft EIS statements and your 
involvement in the NEPA process, and I will just--to give you a 
general idea, I would estimate that 80 to 90 percent of the 
constituents in my district support a bridgethat has been in 
the planning process. It has been under study for over 30 years. That 
is a long time, wouldn't you say? To say it is moving forward at a 
snail's pace might be an exaggeration of how fast this is moving.
    However, we now have a draft EIS before us, but it has 
raised some questions as I have worked with the Transportation 
Department. What EPA sees its role in this is, and I guess 
what--I want to ask some general questions.
    I have to tell you that I think the EPA has acted very 
responsibly with the cabinet in Kentucky in trying to address 
this fairly, but some of the previous efforts have raised these 
questions in my mind. That is, does EPA consider land use, 
planning and zoning a local responsibility or EPA's?
    Ms. Whitman. That is very definitely a local 
responsibility.
    Mrs. Northup. So would you think it would be appropriate 
for EPA, in responding to a draft environmental impact 
statement, to be talking about sprawl and causing sprawl? I 
mean, how would they be able to do that if they don't even have 
a set definition between what is sprawl and what is planned 
growth?
    I might just for the record say the bridge we are talking 
about 35 years ago, when it was first proposed, you might say 
it would lead to growth. In 35 years, growth has far passed up 
what this bridge--where this bridge is going to go. It is now 
almost irrelevant.
    But the words sprawl and planned growth are ones that seem 
to be reoccurring in the EPA's evaluations here.
    Ms. Whitman. Well, Congresswoman, I think that, as far as 
the bridges are concerned, right now most of the issues where 
we had concerns with this project have been resolved. It is not 
up to us to make the final determination on smart growth. We 
are not the Nation's planner.
    However, I do think it is appropriate to raise the issue of 
sustainable development and smart growth, simply because when 
we continue to put additional pressure on the environment we 
end up having to deal with the consequences of that. But, at 
the end of the day, that is the final decision as to where 
development takes place or it doesn't for the large part, 
unless it is in an environmentally sensitive area, wetland or 
something, is not our basic decision. But, as I say--and I 
don't think it is inappropriate for us to raise the issues of 
concern about sprawl and growth, just so we know they are being 
considered. If that is the way people want to go, then that is 
the way the State or the local government makes its decision.
    Mrs. Northup. I think in this particular project that there 
have been a lot of conversations and there has been a lot of 
resolution about these issues. I think what my questions are is 
where is the official EPA position--and maybe I should say are 
you convinced that people in the middle levels and lower level 
manager levels are aware of what the official position is?
    You know, I think my concern is that they are expanding 
their oversight beyond what their responsibilities of their 
respective departments are and that they go beyond their areas 
of expertise and responsibility. Maybe they have long-standing 
relationships with organizations that have taken a position to 
block something, and they become as engaged with organizations, 
you know, in advocacy as just trying to regulate. And I just 
wondered if you are finding yourself in the position and what 
position you are taking on any sort of areas where this might 
be a problem.
    Ms. Whitman. Well, Congresswoman, when those kinds of 
issues or concerns are raised to us, we bring them up with the 
region. We investigate and take appropriate action if it is 
appropriate to redirect where responsibility lies. Making 
decisions, we will do it. If we think there is anything 
inappropriate going on, we will take the action required to 
address it.
    Mrs. Northup. Well, this is the last round of questions for 
me. I am going back. But, first of all, let me thank you for 
what I believe is very honest and straightforward testimony. I 
do believe that people of good will can look at the same facts 
and have a different conclusion about what they think the right 
public policy is, but just clarifying what the position of your 
cabinet is, about relying on science and technology, about 
laying down clear guidelines to us, we can at least have that 
debate based on a confidence that we have the information that 
will help us make those decisions.
    I do think that your leadership and the clarity of what--of 
how you are approaching and your Department is approaching each 
one of these challenges is very reassuring to me.
    I believe that the environment is hugely important to the 
American people and that they really don't want us to walk away 
from that. On the other hand, when they start to believe that 
there are political agendas that are mixed up with this, that 
there is unproven scientific effort, it undermines our ability 
to go forth carefully and keep the public trust with us. I am 
very reassured to hear from you today and just so thrilled, 
quite honestly, with the straightforwardness of your cabinet's 
responses.
    Ms. Whitman. Well, thank you very much. You are absolutely 
right. You can look at all the issues relative to the 
environment, and good and honest people can disagree on how 
best to solve the problems. But as long as we can agree on what 
the issues are and form some base there, I think we can come to 
conclusions that will get us to the end of the day. I look 
forward to working with you.
    Mrs. Northup. Thank you.
    Mr. Walsh. Mr. Mollohan.

                           WATERSHED PROGRAMS

    Mr. Mollohan. Thank you, Mr. Chairman.
    Regarding this $21 million initiative for watersheds, I 
think Mr. Fattah asked what would be the focus of the 
initiative, would some of it be on developing intervention 
strategies or implementation? I would like to follow up and 
have you elaborate on that. What is this money going to be 
eligible to be used for?
    Ms. Whitman. We want a variety of projects. We want urban 
and rural inland, issues like apoxia in the Gulf. The inland 
projects obviously affect the watersheds. They affect the bays 
and the oceans. We are going to have criteria we are 
considering for the program, will run the scope from the value 
of the resource, the likelihood of deliverables, of getting 
real results from the project that is proposed so they can be 
measurable.
    We want to see broad support, broad community support, as I 
mentioned. We are modeling it on the Charles River and 
Massachusetts Initiative. One of the things that we have seen 
and gleaned is that, as we have from a number of otherthings, 
is that you really need broad community support. You need local 
government support, as well as State, but you need the community 
involved as well. That will make a difference in how we choose them.
    The innovation that is behind the project is going to be 
something that is going to be of importance to us, but we are 
looking for a variety of both urban and rural programs where we 
can address the dollars.

                     MID-ATLANTIC HIGHLANDS PROJECT

    Mr. Mollohan. I will just commend you to one area, the Mid-
Atlantic Highlands. There has already been a lot of work done 
in the Mid-Atlantic Highlands. It encompasses watersheds in 
four States--Pennsylvania, Maryland, West Virginia, and 
Virginia. A lot of that work has been done in very close 
cooperation with the EPA and its regional offices.
    Ms. Whitman. Right.
    Mr. Mollohan. And so we are actually excited because we are 
a little ahead of the curve, and hope that we can be active in 
that program.
    Governor, I join the Chairman and the committee in 
appreciating your testimony here today and look forward to 
working with you. Thank you very much for your appearance here 
today.
    Ms. Whitman. Thank you.

     NATIONAL ACADEMY OF SCIENCE (NAS) REVIEW: DIOXIN REASSESSMENT

    Mr. Walsh. Thank you.
    A couple weeks ago, I sent a letter to you requesting that 
the Agency undertake an agreement with the National Academy of 
Sciences to review the current draft regarding the dioxin 
reassessment, which I understand is now being prepared for 
interagency review. In my letter, I noted several areas that I 
thought it appropriate for NAS to look at closely. I also 
mentioned that I understand such review may delay the final 
publication of the reassessment.
    I want to state for the record that, given the importance 
and likely influence this document will have on government and 
private cleanup efforts, numerous regulatory matters around 
even on policy questions regarding the U.S. food supply, I 
believe a slight delay is not only warranted but also perhaps 
advisable. I truly believe that an NAS review is likely to 
expedite a subsequent interagency review and will have the 
added benefit of bringing to bear the expertise of 
nongovernmental scientists in this area.
    It would be ideal if you could respond right now in the 
affirmative, but I understand that may not be possible. My 
intent at this time was merely to emphasize my interest in the 
matter, and if you would like to comment, please feel free to 
do so.
    Ms. Whitman. Oh, I certainly will. We are considering a 
reassessment; we are considering sending it to the National 
Academy of Sciences. We do recognize this has been a long 
process, but you have raised a very important question, and the 
issues are of great concern. At this point I have not made a 
final decision on that, but that is certainly one of the 
options that we are looking at very seriously, on how best to 
go forward with this.

                     CLIMATE CHANGE: KYOTO PROTOCOL

    Mr. Walsh. Thank you.
    Just an editorial comment before we close, and this is the 
end of the hearing, Congressman Fattah mentioned the global 
warming issue and the Kyoto Protocol, and I would just like to 
say that I have not been to Shanghai in China, but I have been 
told by people who visited there that the air is so bad that 
people wear cloths over their mouths, that you can't see out of 
windows and buildings. So I have just heard that.
    I have not been there myself, but I have been to New Delhi 
in India about 3 years ago, and I actually lived in Nepal and 
in India in the Peace Corps a long time ago. The air is worse 
now than it was when I was there 25 years ago. In fact, between 
the coal-fired power plants and the coal-fired trains and coal 
pots that people use to heat their homes and heat their hovels 
where they live along the river, not to mention the dung fires 
and the diesel, the air is dangerous to breathe. In China, I 
have heard it has a yellowish tint. In New Delhi, it is brown. 
The air is brown.
    I think we have--and I am not crying crocodile tears here. 
I think we have a moral responsibility to those people that 
live in those countries to make sure that if their governments 
aren't prepared to go along with the international accords on 
clean air that we should force them. Granted, we consume 
probably more energy than any other country in gross terms and 
probably per capita, but we also I think do a better job than 
almost any country in terms of strenuously enforcing 
environmental codes. So we should use our--and I think we have 
it--our moral high ground to encourage strongly China and India 
to participate in any international agreement, because they are 
making their people very, very sick.
    You may give them--as you pointed out, you may give them 
the opportunity to improve their economy, but it should not be 
at the expense of their health and their environment. So for 
what it is worth.
    Ms. Whitman. Oh, we just got back from India and Thailand 
last month, and I would concur with the quality of the air 
there. We do have a memorandum of understanding with the 
government of India. We are offering them technology and 
technological help, because there is a very high incidence of 
lung disease, particularly among women and children because of 
the fuel they use indoors to both heat and to cook. It is a 
serious concern.
    As we know, we see those pollutants don't stay where they 
are. They migrate. We are seeing pollutants, in fact, of the 
salmon off our West Coast, Alaska. For those tribes that have a 
subsistence living, it is a very real concern. We are seeing 
pollutants turn up there that we banned years ago that are not 
coming from us but from other countries. So we all are in this 
together, and I think we need to understand that.
    Mr. Walsh. Thank you. The committee will have additional 
questions which will be submitted to you for a written response 
for the record. Your prompt response to these is appreciated.
    The committee will stand adjourned until tomorrow, March 
13th, at 9:30 a.m. in room H-143, where we will continue taking 
testimony on the fiscal year 2003 budget submissions of three 
more agencies under this subcommittee's jurisdiction. Thank you 
very much for your forthright testimony.
    Ms. Whitman. Thank you, Mr. Chairman.
    Mr. Walsh. The hearing is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    


                               I N D E X

                              ----------                              

                    Environmental Protection Agency

                                                                   Page
Administrator Whitman's Opening Remarks..........................     5
Air Quality: Lower Manhattan.....................................    16
Anthrax Clean Up.................................................    19
Arsenic and Radon Standards: Impact on Small Systems.............   211
Availability of Information Related to Theoretical or Potential 
  Accidents at Industrial Sites..................................   119
Brownfields:
    Cleanup.....................................................17, 215
    Petroleum Set-Aside..........................................    18
    Grants to States, Tribes and Localities......................   103
    Role of State, Tribes and Localities in Budget Formulation 
      Process....................................................   104
    Expectation of Communities...................................   105
    Grant Determination..........................................   106
    Moving Funds to Grant Areas..................................   107
    Grant Recipient Process......................................   108
    Timing of Grant Awards.......................................   109
    Specific Allocation for use of Remediated Sites..............   110
    Grant Issuance For Housing Construction or Development in 
      Remediated Sites...........................................   111
    Basis of Grant Decision Making Process.......................   112
    Criteria for Determining Project Funding.....................   113
    Role of Other Federal Agencies in Assessing and Remediating 
      Brownfields................................................   114
        Coordination with HUD....................................   216
    Suburban and Rural Communities...............................   180
    Applications from Rural Communities..........................   181
    Use of FY 2003 Funds.........................................   213
    Inventory/Assessment Stage...................................   214
    Leveraging Funds.............................................   217
    Prioritization...............................................   218
Brownfields Program: Liability Protection........................    22
Buildings and Facilities Detailed Information on Spending $17 
  million Increase...............................................   139
Budget Documentation: Additional Information.....................   171
Budget Justification.............................................   245
Chairman Walsh's Opening Remarks.................................     2
Children's Health: Lead-Based Paint..............................    61
Clean Air: Update on the Implementation of the 1997 8-Hour and 
  Fine Particulate Standards.....................................   233
Clean Water SFR Reduction........................................   167
Clear Skies Initiative...........................................    44
    Emissions Standards Technology...............................    76
    Clear Skies Initiative vs. New Source Review.................    77
Climate Change: Kyoto Protocol...................................84, 91
Climate Change Initiative:
    Baseline.....................................................   235
    Comparison to Kyoto Protocol Nations.........................   236
    Interaction with Kyoto Protocol Nations......................   239
    Joining the Protocol.........................................   240
    Greehouse Gas Emissions......................................   237
        Growth...................................................   238
Combined Sewer Overflow Control and Partnership Act..............    58
Combined Sewer Overflows (CSOs)/Sanitary Sewer Overflows (SSOs) 
  Priorities.....................................................    58
Combined Sewer Overflows (CSOs): Farmington District.............    81
Computer System Attacks..........................................    61
Cook Nuclear Plant: Fossil Fuel Generation.......................    80
Deep Well Injection.............................................24, 229
Dredging:
    Contaminated Sediment........................................   202
    28 Mile Pipeline.............................................   205
    Sediment Slurry Pipeline.....................................   206
    ``Iterative Approach'' to Site Remedies......................   208
    Potential Disposal Sites.....................................   209
Drinking Water Gap Analysis......................................   200
Drinking Water Vulnerability Assessment..........................    51
Drought..........................................................    86
EGU/NO<INF>X</INF>: Michigan Growth Assumptions..................    55
Electric Generation Unit Growth:
    Defense of Growth Allocation Calculations....................   188
    Delay in Providing Justification for Calculations............   189
    Growth Calculations for Michigan.............................   190
    Detroit Edison's Monroe Plant Levels.........................   191
    State of Michigan New Source Growth..........................   192
    State Flexibility............................................   193
Endocrine Disruptor Validation Costs:
    Anticipated vs. Actual from 1999 to 2001.....................   115
    Funds for FY2002 and FY2003 Request..........................   117
    Advice of Endocrine Disruptor Methods Validation Subcommittee 
      (EDMVS)....................................................   118
Enforcement......................................................    59
    FTE Reductions...............................................    78
    Enforcement Grant Program Proposal...........................    79
Environmental Education................24, 168, 169, 170, 226, 227, 228
    Proposal to Transfer Program from EPA to NSF.................96, 98
    NSF Operating Plan for Programs..............................    97
Environmental Justice............................................    83
Environmental Regulations Economic Effect........................    53
Environmental Technology.........................................    87
EPA Grant Management.............................................    51
Executive Order 13211: Agency Implementation and Impact 
  Assessment.....................................................   128
Grants Management: Nonprofits....................................    57
Hazardous Waste Disposal by Academic Institution.................    31
Homeland Security:
    Research and Technology Funding..............................    60
    Status.......................................................   158
    Drinking Water Systems.......................................   161
    Small Communities............................................   162
    Clean Up of the Hart and Longworth Buildings.................   163
    Hart Clean Up Funding........................................   164
    FY 2003 Funding..............................................   165
Houston SIP: Update on EPA Support and Coordination..............   177
Indoor Air Quality: Technology Research..........................14, 15
Indoor Environment...............................................    93
    Additional Research in Security Matters......................    93
    Additional Funding for Research..............................    95
Inspector General Goals to address Major EPA Problems............   122
Lack of Coordination Among Water Resource-Related Agencies.......   137
Lake Cooling Technology..........................................    66
Lead-Based Problem...............................................    63
Lead Poisoning...................................................    25
    Budget Commitment............................................   230
Leaking Underground Storage Tank (LUST)..........................    87
Management Scorecard.............................................64, 99
    Priorities of OMB's Identified Concerns......................   100
    Known Problems on Agency Priority List.......................   101
IG Determination of Material Weakness............................   102
Methyl Tertiary Butyl Ether (MTBE)...............................    42
Mid-Atlantic Highlands Project...................................    90
Mobile 6.........................................................    26
National Academy of Science (NAS) Review: Dioxin Reassessment....    91
National Energy Policy: New Source Review and Enforcement Action.    77
National Pollutant Discharge Elimination System:
    Implementation of Guidelines.................................   186
    Costs to Process and Enforce Permit Application..............   187
National Rural Water Association.................................   210
New Source Review................................................    50
New York/New Jersey Port Dump-Off: Peer Review Status............    43
Non-Point Source:
    Misallocation of Federal Resources...........................   134
    Gap Analysis.................................................   135
Availability of SRF and Other EPA Funds to Homeowners and Farmers   136
Office of Research and Development: Funds for Homeland Security 
  Needs..........................................................   243
Ohio River Bridges Project.......................................    88
    Draft Environmental Impact Statement.........................   193
        Agency Responsibility for Draft EIS......................   198
        Timely Review............................................   194
    Land Use Planning and Zoning: ``Sprawl'' vs. ``Planned 
      Growth''...................................................   195
    Agency Responsibility to Comment on Historic Preservation or 
      Cultural Issues............................................   196
    Forecasting Future Traffic Developing........................   197
Ozone and Fine Particulate Matter................................    46
Pesticide Registration, Reregistration and Tolerance Assessments:
    Budget Request Levels........................................   141
    Registration Increase vs. Decrease...........................   142
    Impact of Budget Request on Reducing Backlog.................   143
    Progress of Negotiating New Tolerance Fee Structure..........   144
Pesticide Tolerance Fees.........................................    36
    Collection and Spending of $44 Million.......................   184
    Increase.....................................................   185
Proprietary Computer Model:
    Analysis of the ``Clear Skies'' Proposal...................172, 176
    Contract.....................................................   173
Model Used for Other Policy Analysis.............................   174
Violation of the Data Quality Law................................   175
Questions submitted for the record...............................    93
Ranking Member Mollohan's Opening Remarks........................     4
Region Overriding State Authority in Implementing Environmental 
  Programs.......................................................   132
Regional Accountability of Environmental Policies................   129
Regulatory Review:
    New EPA Process for Regulatory Review by the Office of 
      Policy, Economics, and Innovation (OPEI)...................   124
    Rules Reviewed Under New Process.............................   126
    Rules Based on Sound Science and Realistic Costs and Benefits   127
Research Triangle Park Facility..................................    31
Resources for Water Trade Associations...........................   148
Science and Technology: Support for Proposed Increase in 
  Innovative Approaches..........................................   150
Small System Technical Assistance................................   147
Source Water Protection Program..................................   145
    Relationship with Homeland Security..........................   146
State Performance................................................    84
STAR Fellowship Program: Elimination from EPA's Budget...........   241
    Effects......................................................   242
Stream Restoration Research: Science and Development of New 
  Technology.....................................................   201
Superfund Program................................................   149
    Expenditures for Cleanup Activities........................151, 152
    Changes Made in Program Management...........................   153
    Status of NPL Sites..........................................   154
    Superfund Trust Fund.......................................155, 156
Superfund Reauthorization........................................    20
Superfund Site Cleanup: Responsible Parties......................    42
Superfund Tax....................................................    21
Superfund Tax Reauthorization....................................    40
Targeted Watershed Initiative....................................    79
Title VI: Civil Rights Act.......................................    23
    Status Report in Resolving a Backlog of Complaints...........   219
    Progress of Process..........................................   220
    Permanent Guidelines.........................................   221
    Current Backlog of Cases and Time Frame......................   222
    New Cases....................................................   223
    Summary of Issues Involved in Resolved Cases.................   224
    Budget Request for the Resolution of Cases...................   225
Total Maximum Daily Loads Status................................34, 133
Tremont, Ohio City Landfill......................................    35
    Scheduling and Cost Management...............................   178
    Funds Proposed in FY 2003....................................   179
Vehicle Emissions Testing........................................25, 29
    Impact of Dropping Program...................................    27
Water and Wastewater Infrastructure Needs........................   166
Wastewater Treatment Process: Onondaga Lake......................    38
Watershed Grants Initiative......................................    63
Watershed Programs...............................................    90
    Focus on Rural Communities.................................182, 183
Workforce Restructuring Plan: Scientific Workforce...............   244

                                <greek-d>


</pre></body></html>
